<html>
<title> - FIXING THE HOMELAND SECURITY INFORMATION NETWORK: FINDING THE WAY FORWARD FOR BETTER INFORMATION SHARING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                FIXING THE HOMELAND SECURITY INFORMATION 
    NETWORK: FINDING THE WAY FORWARD FOR BETTER INFORMATION SHARING 

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
                        INFORMATION SHARING, AND
                       TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2007

                               __________

                           Serial No. 110-34

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                      

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

48-909 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 










                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     JANE HARMAN, California, Chair

NORMAN D. DICKS, Washington          DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER P. CARNEY, Pennsylvania  CHARLES W. DENT, Pennsylvania
ED PERLMUTTER, Colorado              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                 Thomas M. Finan, Director and Counsel

                        Brandon Declet, Counsel

                   Natalie Nixon, Deputy Chief Clerk

        Deron McElroy, Minority Senior Professional Staff Member

                                  (II)










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
Christopher P. Carney, a Representative in Congress From the 
  State of Pennsylvania..........................................    30
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    26
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State of Colorado..........................................    29
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................     3

                               Witnesses
                                Panel I

Mr. Donald F. Kennedy, Executive Director, New England State 
  Police Information Network, Regional Information-Sharing 
  System:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Wayne Parent, Deputy Director, Office of Operations 
  Coordination, U.S. Department of Homeland Security:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22
Mr. David Powner, Director, Information Technology Management 
  Issues, U.S. Government Accountability Office:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7

                                Panel II

Captain William Harris, Delaware State Police:
  Oral Statement.................................................    33
  Prepared Statement.............................................    34
Mr. Barry S. Lindquist, Inspector, Office of Statewide 
  Intelligence, Florida Department of Law Enforcementq:
  Oral Statement.................................................    39
  Prepared Statement.............................................    39
First Sergeant Lee Miller, Virginia State Police:
  Oral Statement.................................................    35
  Prepared Statement.............................................    37
Captain Brian Tomblin, Military Liaison, Office of Homeland 
  Security, Tennessee Army National Guard:
  Oral Statement.................................................    41
  Prepared Statement.............................................    42


                      FIXING THE HOMELAND SECURITY
                      INFORMATION NETWORK: FINDING
             THE WAY FORWARD FOR BETTER INFORMATION SHARING

                              ----------                              


                         Thursday, May 10, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:13 a.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Harman, Langevin, Carney, 
Perlmutter, and Shays.
    Ms. Harman. [Presiding.] The hearing will come to order.
    My apologies to my colleague, Mr. Shays, and our witnesses, 
but of course the Democratic Caucus was called at precisely the 
same time. As yet, I have not mastered the ability to be in two 
places at the same time; maybe soon.
    The Homeland Security Information Network, or HSIN for 
short, was supposed to be the department's main pipeline for 
sharing unclassified information with state, local and tribal 
partners. More than 3 years later, we are far from the robust 
system that was promised. What we have instead is kind of a 
mess. What we need is an effective fix. Sadly, I am not very 
hopeful.
    I have in my hand a one-page memo dated April 17, 2007, 
from Admiral Roger Rufe, the director of the department's 
Office of Operations Coordination, to the undersecretary of 
management, Paul Schneider. I am frankly perplexed by what 
Admiral Rufe had to say about the HSIN just several weeks ago. 
Although he concedes that the system has ``grown without 
sufficient planning and program management'' for years, the 
admiral defends it, saying that ``the HSIN, for better or 
worse``--sounds like a marriage--``is tied to DHS missions and 
operations.''
    Is the HSIN-DHS relationship, as I just said, some kind of 
bad marriage that we are all just supposed to accept?
    Perhaps sensing that the long knives are out, the admiral 
goes on to say that he ``fully embraces the concept of making 
decisive strategic changes to the program,'' but he urges Mr. 
Schneider ``to fully consider the unintended consequences of 
programmatic decisions, particularly as they impact DHS 
operations and missions.''
    I am afraid that the admiral's plea for patience and fear 
of unintended consequences could be undermined by the rest of 
his comments. He notes that the HSIN working group last fall 
found that ``DHS has not clearly defined the purpose and scope 
of HSIN nor designated roles and responsibilities for strategy 
development and implementation through a formal policy 
mechanism.''
    The admiral agrees, adding that ``we continue to struggle 
with the lack of aligned DHS policy and established business 
rules.'' If only it were that simple. From what GAO is telling 
us and what the DHS IG told us last year, HSIN's troubles go 
far deeper, to day one of the program.
    We are joined this morning by a person who saw all this 
coming almost 5 years ago--or we will be joined; he is not here 
yet--our colleague Congressman Jim Langevin of Rhode Island. 
Jim started asking Tom Ridge back in 2002 about why the 
department didn't first talk to state and local officials to 
find out what information-sharing systems were already working.
    Today, we are asking Jim's question again. Why did the 
department choose not to partner with those working 
information-sharing systems and avoid the mess it finds itself 
in now? I have a strong suspicion that turf had something to do 
with the department's decision to go its own way, even if it 
meant duplicating tried and true information-sharing systems in 
the process.
    Ignoring the experience, expertise and requirements of 
state and locals is unfortunately a common thing these days. 
With all due respect to the well-meaning men and women who work 
at DHS, many do not know what state and local needs are. We 
find time and again everywhere we look that there is an absence 
of consultation at the front end, and then we end up with a 
mess at the back end. I suppose we shouldn't be surprised, 
then, that they didn't talk to the state and locals who were 
building an information network that would have worked.
    The needs of end-users should have been the starting point, 
as they should be the starting point with intelligence products 
and a lot of other things that DHS is doing. Because DHS got it 
backwards, the HSIN problems were cooked in from the beginning.
    What do we have to show for it? A flawed information system 
with core problems that have continued to fester. I note that 
the HSIN has the dubious distinction of being on both the OMB 
watch list for poorly planned IT projects and the OMB high-risk 
list for poorly performing IT projects. In fact, the HSIN is 
one of 20 out of 900 IT systems across the federal government 
that makes both lists. For the mathematicians out there, that 
means that HSIN is among the top two percent worst IT systems. 
Almost 6 years after the largest terrorist attack in our 
country, this is totally unacceptable.
    So what do we do? First, we need an information-sharing 
system that gets buy-in from state and locals, that includes 
accurate, reliable and timely information, and helps them 
protect their communities. Second, we need an information-
sharing system that complements existing systems that will work 
for decades, in some cases for more than 30 years. Third, we 
need an information-sharing system that not only helps 
safeguard the American people, but also operates within the 
bounds of the U.S. Constitution.
    I look forward to hearing from our witnesses today about 
how to get there, what benchmarks we should be establishing so 
we can conduct rigorous oversight of the HSIN that is so 
plainly needed. Let me just conclude by saying this: It is no 
pleasure to sit up here and say these things. It makes me quite 
uncomfortable. I don't play ``gotcha'' and I don't want you to 
feel that that is what we are trying to do up here.
    What we are trying to do up here is get it right. I think 
we have wasted a lot of time and resources and human talent in 
duplication because we don't effectively coordinate. So this 
subcommittee has said for a long time that we are going to 
start at the other end. We are going to talk to the users of 
information, find out what they need, find out if they have 
tools that work, and then on a vertical basis coming back from 
the end-point to Washington, we are going to make sure that 
Washington is providing those things and adopting processes 
that will keep our communities safe.
    Only if we have really robust information sharing; only if 
we have a full understanding at the local level of what to look 
for and what to do, are we going to find the people in Cherry 
Hill, New Jersey, or pick a place of interest. I know you all 
want to do that, and I know you all want to get it right. So I 
am just telling you that is our intention.
    The ranking member is not here, so I would like to ask Mr. 
Shays if he has some opening remarks.
    Mr. Shays. Thank you, Madam Chairperson. I first want to 
say that this committee is very fortunate to have you chair the 
Subcommittee on Intelligence, Information, and Terrorism Risk 
Assessment, with your background on the Intelligence Committee. 
It is just really wonderful to have you chair this committee 
and to have this hearing.
    I have a statement that I am going to read--it is Mr. 
Reichert's--and then I am going to be leaving. I do apologize 
for that, because I think this is a very important hearing.
    Good morning. We meet today to examine the Homeland 
Security Information Network, or HSIN, the DHS information 
system network.
    By virtually all accounts, HSIN was poorly planned and 
implemented by the department. There have been several reports 
by the DHS inspector general and the General Accountability 
Office to catalogue the failings of the HSIN program. A recent 
example includes the June 2006 inspector general report 
indicating that HSIN is not effectively supporting state and 
local information sharing.
    Today, GAO is releasing a report with similar conclusions. 
We have also heard, though, that the situation with HSIN is 
improving. While this is good news, we must focus intently on 
how to move forward more quickly and make the federal 
information-sharing environment, including HSIN, a success. The 
story of HSIN is a story of the federal government trying to 
impose a one-size-fits-all approach on states and locals. It is 
no wonder that in many states and localities, it is not 
working.
    In any homeland security endeavor, but especially in the 
realm of information sharing, DHS has need to get state and 
local buy-in and cooperation. A federal-first, top-down 
approach simply does not work in an environment where state and 
local law enforcement are America's first preventers.
    It is also important to realize that DHS will never be able 
to please every state and locality across America. While there 
will never be 100 percent satisfaction, DHS needs to get the 
message loud and clear that Congress expects substantial 
progress in the relations with states and localities.
    On our first panel, we especially want to hear from Mr. 
Parent on how DHS can improve its cooperation with state and 
local stakeholders. On the second panel, we expect to hear that 
in some states, the HSIN system duplicates ongoing efforts. In 
other states, it simply gathers dust.
    We will also hear that HSIN is being used by some as an 
essential tool for information sharing. It is critical that DHS 
gets information sharing right and does so in a cooperative 
manner. It is a fundamental element of our homeland security 
and vital to protecting our nation.
    That is the statement of our ranking member. I would also 
like to say that evidently he is not feeling very well, so that 
is part of the reason why he is not here today. So I thank you 
all.
    Ms. Harman. I thank you, Mr. Shays. All compliments are 
welcome. Please stay here and offer more.
    [Laughter.]
    And to the ranking member, please send him our best wishes. 
I hope he will be feeling better.
    I am told that we will be joined by other members. 
Unfortunately, this morning was a very hectic one for everyone, 
and they are on their way over. I especially hope that Mr. 
Langevin will be able to be here soon.
    Let me welcome the first panel of witnesses.
    A ha, right on time. Here is Mr. Perlmutter.
    Let me welcome the first panel of witnesses, just in time 
for votes.
    Our first witness, David Powner, is the director of 
information technology management issues for the GAO. Mr. 
Powner is responsible for a large segment of GAO's IT work, 
including systems development, IT investment management, health 
IT, and cyber-critical infrastructure protection and reviews. 
That is a mouthful.
    Mr. Powner has led teams reviewing major IT modernization 
efforts at Cheyenne Mountain Air Force Station, the National 
Weather Service, the FAA, and the IRS. These reviews covered 
many IT areas, including software development and maturity, 
information security, and enterprise security.
    His team's fine work on the HSIN is one of the reasons we 
are holding this hearing today. I would mention that we met 
with Mr. Powner just a couple of days ago and reviewed some 
aspects of this report. It is a very important report, and we 
thank you for it.
    Our second witness, Donald Kennedy, is the executive 
director of the New England State Police Information Network, 
or NESPIN. NESPIN is one of the six regional information-
sharing system risk centers that are funded through DOJ's 
Office of Justice programs in the Bureau of Justice Assistance. 
Mr. Kennedy is currently the vice chairman of the RISS National 
Directors Association.
    Prior to being named executive director in 2006--wonderful; 
here he is just in time, a hero's welcome--he served as 
NESPIN's deputy director of field services. Mr. Kennedy is a 
retired captain from the Rhode Island State Police where he 
served for 24 years and has served in all bureaus and divisions 
within the state police.
    We are very pleased you are here.
    I want to welcome Mr. Langevin, because he is truly the 
godfather of this hearing and the issues that we are raising 
today.
    Our third witness--and we put you in this order, Mr. 
Parent; I just want to explain that--is Wayne Parent, the 
deputy director of DHS's Office of Operations Coordination. Mr. 
Parent previously served as the director of current operations 
for the Border and Transportation Security Directorate within 
the department.
    On the BTS operations staff, Mr. Parent was responsible for 
current operational issues including coordinating the execution 
of both interdepartmental and interagency operations plans. He 
supervised the BTS Watch Sector in the Homeland Security 
Operations Center and managed planning and exercise 
participation for BTS. He was also responsible for coordination 
of intelligence-sharing between DHS's Information Analysis and 
Infrastructure Protection Directorate and the agencies within 
the BTS Directorate.
    The vote lights seem to have gone off, so I would like 
someone to tell me where we are with anticipated votes. If they 
are not happening immediately, I would like to go directly into 
testimony, and then hopefully we can get through your testimony 
and some member questions before we have to adjourn briefly for 
votes.
    I thank you, and I will recognize our first witness.

  STATEMENT OF DAVID POWNER, DIRECTOR, INFORMATION TECHNOLOGY 
    MANAGEMENT ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Powner. Madam Chair, members of the subcommittee, we 
appreciate the opportunity to testify on the Homeland Security 
Information Network.
    HSIN is a communications application that is to serve as 
DHS's primary nationwide information-sharing tool for 
transmitting sensitive, but unclassified, information. HSIN's 
problems to date have been well publicized. DHS's IG reported 
last year that it does not effectively support state and local 
information sharing.
    In addition, it is on the Office of Management and Budget's 
radar screen, having made both OMB's management watch list and 
high-risk list, meaning that according to the administration, 
HSIN is a poorly planned and poorly performing project.
    This morning, as requested, I will summarize the results of 
a report that we recently completed at the request of Chairman 
Thompson that identified nearly a dozen homeland security 
networks within DHS that now cost over $300 million annually to 
develop, operate and maintain.
    Specifically, I will address the lack of coordination 
between HSIN and the regional information sharing program, a 
key nationwide information-sharing initiative operated and 
maintained by state and local officials. I will also address 
key efforts needed to improve coordination and to avoid this 
problem from reoccurring.
    First, DHS did not effectively coordinate HSIN and the RISS 
program. RISS officials met with DHS in late 2003 and early 
2004 to demonstrate that their application could be used by DHS 
to share homeland security information. Communications stopped 
shortly after these meetings with no explanation. When we 
questioned why this communication stopped, we were told that 
DHS officials involved in these initial meetings are no longer 
with the department.
    Instead of leveraging the existing RISS application, DHS 
developed its own. The reasons for this lack of coordination 
are several, and include DHS rushing into HSIN without 
understanding key state and local initiatives. Until DHS 
coordinates key information-sharing initiatives better, it 
faces the risk of ineffective information sharing associated 
with terrorist threats, vulnerabilities and warnings.
    In addition, DHS is developing and deploying HSIN 
capabilities that duplicate those associated with the RISS 
program. Both programs target similar users. For example, both 
are used and marketed for use at state fusion centers. In 
addition, both offer similar community-based portals such as 
those associated with emergency management in our nation's 
critical infrastructure sectors.
    DHS acknowledges the lack of coordination and several 
improvements efforts are under way. These include developing an 
integration strategy so that HSIN can work with other 
applications and networks; improving the content that HSIN 
provides; and forming multiple committees that are to define 
operational priorities for DHS users and advise DHS on how HSIN 
can better meet user needs.
    These are positive steps that should help, but these 
efforts have either just begun or are in the early planning 
stages. For example, the membership of the committees mentioned 
are still being established. Further, implementation milestones 
for these improvements efforts have yet to be defined. In 
addition to these planned improvements, we recommended that 
that the department conduct an inventory of state and local 
information-sharing initiatives like RISS and assess 
opportunities for the HSIN program to improve information 
sharing and avoid duplication.
    Addressing the HSIN coordination issues with state and 
local initiatives should be the immediate focus, but on a 
broader scale, DHS has many networks and associated systems 
that need to be coordinated to effectively share critical 
information and to avoid duplicative efforts. We made 
recommendations to address this larger coordination challenge 
and to ensure that these efforts are consistent with the 
information-sharing environment called for in the 2004 Intel 
Reform Act.
    In summary, HSIN has many hurdles to overcome. It has been 
poorly managed and poorly coordinated. Although some overlap in 
our nation's initiatives is prudent to adequately protect the 
homeland, duplication is not and is a waste of taxpayers' 
dollars.
    Moving forward, it is essential that DHS clearly define 
HSIN requirements with input from users; improve its content; 
strengthen its program management; and implement an integration 
strategy so that it can work with other applications. 
Otherwise, it will not be the key information-sharing network 
it is intended to be.
    Madam Chair, this concludes my statement. I will be pleased 
to answer questions.
    [The statement of Mr. Powner follows:]

                 Prepared Statement of David A. Powner

    Madame Chair and Members of the Subcommittee:
    I appreciate the opportunity to be here today to discuss challenges 
facing the Department of Homeland Security (DHS) in coordinating 
efforts on its Homeland Security Information Network (HSIN) with state 
and local governments and other parties involved in the mission of 
keeping our nation secure. As you know, DHS is responsible for 
coordinating the federal government's homeland security communications 
with all levels of government--including state and local. In support of 
this mission, the department developed HSIN as part of its goal to 
establish an infrastructure for sharing homeland security 
information.\1\ Besides HSIN, an Internet-based application, DHS also 
operates at least 11 other networks in support of its homeland security 
mission. The department reported that in fiscal years 2005 and 2006, 
these investments cost $611.8 million to develop, operate, and 
maintain.
---------------------------------------------------------------------------
    \1\ The Homeland Security Act of 2002 directed DHS to establish 
communications to share homeland security information with federal 
agencies, state and local governments, and other specified groups.
---------------------------------------------------------------------------
    As agreed, in my remarks today I will discuss the department's 
efforts to coordinate its development and use of HSIN with key state 
and local information-sharing initiatives. These remarks are based on 
our recent report on homeland security networks and applications.\2\ 
That report focused on two key initiatives under the Regional 
Information Sharing Systems program. This nationwide program, operated 
and managed by state and local officials, provides services (including 
information sharing) to support law enforcement and criminal justice 
agencies. Its information-sharing efforts also include emergency 
responders and public safety officials.
---------------------------------------------------------------------------
    \2\ GAO, Information Technology: Numerous Federal Networks Used to 
Support Homeland Security Need to Be Better Coordinated wth Key State 
and Local Information Sharing Initiatives, GAO-07-455 (Washington, 
D.C.: Apr. 16, 2007).
---------------------------------------------------------------------------
    In performing the work for the report, we analyzed descriptive data 
(e.g., type of network, estimated costs) on major networks and 
Internet-based systems identified by DHS as supporting its homeland 
security mission, including information sharing. We also reviewed 
documentation on HSIN and state and local initiatives; compared it 
against the requirements of the Homeland Security Act, federal 
guidance, and related best practices; and interviewed DHS officials and 
state and local officials. This work was performed in accordance with 
generally accepted government auditing standards.

Results in Brief
    In developing HSIN, DHS did not effectively coordinate with key 
state and local initiatives that are part of the Regional Information 
Sharing Systems program. Specifically, the department did not fully 
develop joint strategies and coordinated policies, procedures, and 
other means to operate across agency boundaries and meet mutual needs, 
which are key practices for effective coordination and collaboration 
and are a means to enhance information sharing and avoid duplication of 
effort. For example, DHS did not engage the program in ongoing dialogue 
to determine how resources could be leveraged to meet mutual needs or 
work through technical issues and differences in what each organization 
considers to be terrorism information.
    A major factor contributing to the limited coordination was that 
after September 11, 2001, the department expedited its schedule for 
deploying HSIN. In its haste, it did not develop a comprehensive 
inventory of key state and local information-sharing initiatives.
    Consequently, DHS faces the risk that effective information sharing 
is not occurring. It also faces the risk that the HSIN system may be 
duplicating state and local capabilities. Specifically, both HSIN and 
one of the key initiatives target similar user groups, such as 
emergency management agencies, and all have similar features, such as 
Web portals,\3\ electronic bulletin boards, ``chat'' tools, and 
document libraries.
---------------------------------------------------------------------------
    \3\ A Web portal is generally a site that offers several resources 
or services, such as search engines, news articles, forums, and other 
tools.
---------------------------------------------------------------------------
    The department has efforts planned and under way to improve 
coordination and collaboration. For example, it is forming an HSIN 
Mission Coordinating Committee and an HSIN Advisory Committee to help 
ensure that HSIN meets the information-sharing needs of DHS and other 
users. However, these activities have either just begun or are being 
planned, with implementation milestones yet to be defined. In addition 
to the planned improvements, DHS has agreed to implement our 
recommendations to take steps to ensure that HSIN is effectively 
coordinated with key state and local government information-sharing 
initiatives, which include identifying and inventorying such 
initiatives. We also recommended that DHS determine whether there are 
coordination and duplication issues with its other homeland security 
networks and associated systems and applications. Until DHS completes 
these activities, including developing an inventory of key state and 
local initiatives, and fully implementing and institutionalizing key 
practices and guidance for effective coordination and collaboration, it 
will continue to be at risk of not effectively sharing information with 
other key state and local information initiatives and duplicating state 
and local capabilities.

Background
    DHS is the lead department involved in securing our nation's 
homeland. Its mission includes, among other things, leading the unified 
national effort to secure the United States, preventing and deterring 
terrorist attacks, and protecting against and responding to threats and 
hazards to the nation. As part of its mission and as required by the 
Homeland Security Act of 2002,\4\ the department is also responsible 
for coordinating efforts across all levels of government and throughout 
the nation, including with federal, state, tribal, local, and private 
sector homeland security resources.
---------------------------------------------------------------------------
    \4\ Homeland Security Act of 2002, Pub. L. No. 107-296, 116 Stat. 
2135 (Nov. 25, 2002).
---------------------------------------------------------------------------
    As we have previously reported, DHS relies extensively on 
information technology (IT), such as networks and associated system 
applications, to carry out its mission.\5\ Specifically, in our recent 
report, we reported that the department identified 11 major networks it 
uses to support its homeland security functions, including sharing 
information with state and local governments.\6\ Examples of such DHS 
networks include the Homeland Secure Data Network, the Immigration and 
Customs Enforcement Network, and the Customs and Border Protection 
Network. In addition, the department has deployed HSIN, a homeland 
security information-sharing application that operates on the public 
Internet. As shown in table 1, of the 11 networks, 1 is categorized as 
Top Secret, 1 is Secret, 8 are Sensitive but Unclassified, and 1 is 
unclassified. HSIN is considered Sensitive but Unclassified.
---------------------------------------------------------------------------
    \5\ See, for example, GAO, Information Technology: Major Federal 
Networks That Support Homeland Security Functions, GAO-04-375 
(Washington, D.C.: Sept. 17, 2004) and Information Technology: DHS 
Needs to Fully Deine and Implement Polices and Procedures for 
Effectively Managing Investments, GAO-07-424 (Washington, D.C.: April 
27, 2007).
    \6\ GAO-07-455.
---------------------------------------------------------------------------
Table 1: DHS Information-Sharing Networks and HSIN Application
                                                                                Reported cost per fiscal year
                                                            Users outside           (dollars in millions)
                Name                       Categories            DHS
                                                                                2005        2006        TotalC Local Area Network                  Top Secret           --               (a)               (a)   --
  (C-LAN)
----------------------------------------------------------------------------------------------------------------
Homeland Secure Data                  Secret               Other federal,   $46.2           $32.6   $78.8
  Network (HSDN)                                            state, local
----------------------------------------------------------------------------------------------------------------
Coast Guard Data Network Plus         Sensitive but        Other federal    15.0             15.0   30.0
 (CGDN+).                              Unclassified
----------------------------------------------------------------------------------------------------------------
Critical Infrastructure Warning       Sensitive but        Other federal,   12.1             12.0   24.1
 Information Network (CWIN).           Unclassified         state
----------------------------------------------------------------------------------------------------------------
Customs and Border Protection (CBP)   Sensitive but        --               58.7             63.0   121.7
 Network.                              Unclassified
----------------------------------------------------------------------------------------------------------------
DHS Core Network (DCN)                Sensitive but        --               13.4             10.3   23.7
                                       Unclassified
----------------------------------------------------------------------------------------------------------------
Homeland Security Information         Sensitive but        Other federal,   11.9             20.5   32.4
 Network (HSIN).                       Unclassified         state, local
----------------------------------------------------------------------------------------------------------------
Immigration and Customs Enforcement   Sensitive but        Other federal,   14.4             19.2   33.6
 Network (ICENet).                     Unclassified         state, local
----------------------------------------------------------------------------------------------------------------
ONENet                                Sensitive but        --               34.6             40.0   74.6
                                       Unclassified
----------------------------------------------------------------------------------------------------------------
Secret Service Wide Area Network      Sensitive but        --               2.8               3.1   5.9
 (WAN).                                Unclassified
----------------------------------------------------------------------------------------------------------------
Transportation Security               Sensitive but        Other federal    70.0            105.0   175.0
 Administration Network (TSANet).      Unclassified
----------------------------------------------------------------------------------------------------------------
Federal Emergency Management Agency   Unclassified         --               6.0               6.0   12.0
 (FEMA) Switched Network.
----------------------------------------------------------------------------------------------------------------
Total<SUP>a</SUP>                                                                      $285.1         $326.7   $611.8
                <SUP>Source:</SUP> GAO</SUP> analysis</SUP> of</SUP> 
                agency</SUP> data.
                a</SUP> Costs for C-LAN are not included, as the 
                information is not publicly available.
    As the table shows, some of these networks are used solely within 
DHS, while others are also used by other federal agencies, as well as 
state and local governments. In addition, the total cost to develop, 
operate, and maintain these networks and HSIN in fiscal years 2005 and 
2006, as reported by DHS, was $611.8 million. Of this total, the 
networks accounted for the vast majority of the cost: $579.4 million.

DHS Established HSIN to Provide Information-Sharing Capabilities
    DHS considers HSIN to be its primary communication application for 
transmitting sensitive but unclassified information. According to DHS, 
this network is an encrypted, unclassified, Web-based communications 
application that serves as DHS's primary nationwide information-sharing 
and collaboration tool. It is intended to offer both real-time chat and 
instant messaging capability, as well as a document library that 
contains reports from multiple federal, state, and local sources. 
Available through the application are suspicious incident and pre-
incident information and analysis of terrorist threats, tactics, and 
weapons. The application is managed within DHS's Office of Operations 
Coordination.
    HSIN includes over 35 communities of interest, such as emergency 
management, law enforcement, counterterrorism, individual states, and 
private sector communities. Each community of interest has Web pages 
that are tailored for the community and contain general and community-
specific news articles, links, and contact information. The community 
Web pages also provide access to other resources, such as the 
following:
        <bullet> Document library. Users can search the entire document 
        library within the communities they have access to.
        <bullet> Discussion threads. HSIN has a discussion thread (or 
        bulletin board) feature that allows users to post information 
        that other users should know about and post requests for 
        information that other users might have. Community 
        administrators can also post and track tasks assigned to users 
        during an incident.
        <bullet> Chat tool. HSIN's chat tool, known as Jabber, is 
        similar to other instant message and chat tools--with the 
        addition of security. Users can customize lists of their 
        coworkers and send messages individually or set up chat rooms 
        for more users. Other features include chat logs (which allow 
        users to review conversations), timestamps, and user profiles.
States and Local Governments Have Also Established Similar Initiatives
    State and local governments have similar IT initiatives to carry 
out their homeland security missions, including sharing information. A 
key state and local-based initiative is the Regional Information 
Sharing Systems (RISS) program.
    The RISS program helps state and local jurisdictions to, among 
other things, share information in support of their homeland security 
missions. This nationwide program, operated and managed by state and 
local officials, was established in 1974 to address crime that operates 
across jurisdictional lines. The program consists of six regional 
information analysis centers that serve as regional hubs across the 
country. These centers offer services to RISS members in their regions, 
including information sharing and research, analytical products, case 
investigation support, funding, equipment loans, and training. Funding 
for the RISS program is administered through a grant from the 
Department of Justice.
    As part of its information-sharing efforts, the RISS program 
operates two key initiatives (among others): the RISS Secure Intranet 
(RISSNET) and the Automated Trusted Information Exchange \7\ (RISS 
ATIX):
---------------------------------------------------------------------------
    \7\ Formerly called the Anti-Terrorism Information Exchange.
---------------------------------------------------------------------------
        <bullet> Created in 1996, RISSNET is intended as a secure 
        network serving member law enforcement agencies throughout the 
        United States and other countries. Through this network, RISS 
        offers services such as secure e-mail, document libraries, 
        intelligence databases, Web pages, bulletin boards, and a chat 
        tool.
        <bullet> RISS ATIX offers services similar to those offered by 
        RISSNET to agencies beyond the law enforcement community, 
        including executives and officials from governmental and 
        nongovernmental agencies and organizations that have public 
        safety responsibilities. RISS ATIX is partitioned into 39 
        communities of interest, such as critical infrastructure, 
        emergency management, public health, and government officials. 
        Members of each community of interest contribute information to 
        be made available within each community.
                According to RISS officials, the RISS ATIX application 
                was developed in response to the events of September 
                11, 2001; it was initiated in 2002 as an application to 
                provide tools for information sharing and collaboration 
                among public safety stakeholders, such as first 
                responders and schools. As of July 2006, RISS ATIX 
                supported 1,922 users beyond the traditional users of 
                RISSNET.
                RISS ATIX uses the technology of RISSNET to offer 
                services through its Web pages. The pages are tailored 
                for each community of interest and contain community-
                specific news articles, links, and contact information. 
                The pages also provide access to the following 
                features:
        <bullet> Document library. Participants can store and search 
        relevant documents within their community of interest.
        <bullet> Bulletin board. The RISS ATIX bulletin board allows 
        users to post timely threat information in discussion forums 
        and to view and respond to posted information. Users can post 
        documents, images, and information related to terrorism and 
        homeland security, as well as receive DHS information, 
        advisories, and warnings. According to RISS officials, the 
        bulletin boards are monitored by a RISS moderator to relay any 
        information that might be useful for other communities of 
        interest.
        <bullet> Chat tool. ATIXLive is an online, real-time, 
        collaborative communications information-sharing tool for the 
        exchange of information by community members. Through this 
        tool, users can post timely threat information and view and 
        respond to messages posted.
        <bullet> Secure e-mail. RISS ATIX participants have access to 
        e-mail that can be used to provide alerts and related 
        information. According to RISS, this is done in a secure 
        environment.

GAO Has Designated Information Sharing as High Risk
    The need to improve information sharing as part of a national 
effort to improve homeland security and preparedness has been widely 
recognized, not only to improve our ability to anticipate and respond 
to threats and emergencies, but to avoid unnecessary expenditure of 
scarce resources. In January 2005,\8\ and more recently in January 
2007,\9\ we identified establishing appropriate and effective 
information-sharing mechanisms to improve homeland security as a high-
risk area. The Office of Management and Budget (OMB) has also issued 
guidance that stresses the importance of information sharing and 
avoiding duplication of effort.\10\ Nonetheless, although this area has 
received increased attention, the federal government faces formidable 
challenges in sharing information among stakeholders in an appropriate 
and timely manner.
---------------------------------------------------------------------------
    \8\ GAO, High-Risk Series: An Update, GAO-05-207 (Washington, D.C.: 
January 2005).
    \9\ GAO, High-Risk Series: An Update, GAO-07-310 (Washington, D.C.: 
January 2007).
    \10\ For example, Office of Management and Budget, Management of 
Federal Information Resources, Circular A-130 (Washington, D.C.: Nov. 
30, 2000) and Preparation, Submission, and Execution of the Budget, 
Circular A-11 (Washington, D.C.: June 30, 2006).
---------------------------------------------------------------------------
    As we concluded in October 2005, agencies can help address these 
challenges by adopting and implementing key practices, related to OMB's 
guidance, to improve collaboration, such as establishing joint 
strategies and addressing needs by leveraging resources and developing 
compatible policies, procedures, and other means to operate across 
agency boundaries.\11\ Based on our research and experience, these 
practices are also relevant for collaboration between federal agencies 
and other levels of government (e.g., state, local). Until these 
coordination and collaboration practices are implemented, agencies face 
the risk that effective information sharing will not occur.
---------------------------------------------------------------------------
    \11\ GAO, Results-Oriented Government: Practices That Can Help 
Enhance and Sustain Collaboration among Federal Agencies, GAO-06-15 
(Washington, D.C.: October 2005).
---------------------------------------------------------------------------
    Congress and the Administration have made several efforts to 
address the challenges associated with information sharing. In 
particular, as we reported in March 2006, the President initiated an 
effort to establish an Information Sharing Environment that is to 
combine policies, procedures, and networks and other technologies that 
link people, systems, and information among all appropriate federal, 
state, local, and tribal entities and the private sector.\12\ In 
November 2006, in response to congressional direction, the 
Administration issued a plan for implementing this environment and 
described actions that the federal government intends--in coordination 
with state, local, tribal, private sector, and foreign partners--to 
carry out over the next 3 years.
---------------------------------------------------------------------------
    \12\ GAO, Information Sharing: The Federal Government Needs to 
Establish Policies and Processes for Sharing Terrorism-Related and 
Sensitve but Unclassified Information, GAO-06-385 (Washington, D.C.: 
March 2006).

Efforts to Coordinate HSIN with Key State and Local Information-Sharing 
Initiatives Have Been Limited
    DHS did not fully adhere to the previously mentioned key practices 
in coordinating its efforts on HSIN with key state and local 
information-sharing initiatives. The department's limited use of these 
practices is attributable to a number of factors: in particular, after 
the events of September 11, 2001, the department expedited its schedule 
to deploy HSIN capabilities, and in doing so, it did not develop an 
inventory of key state and local information initiatives. Until the 
department fully implements key coordination and collaboration 
practices and guidance, it faces, among other things, the risk that 
effective information sharing is not occurring. DHS has efforts planned 
and under way to improve coordination and collaboration, including 
implementing the recommendations in our recent report.\13\
---------------------------------------------------------------------------
    \13\ GAO-07-455.

Key Practices Were Not Effectively Implemented
    In developing HSIN, DHS did not fully adhere to the practices 
related to OMB's guidance. First, although DHS officials met with RISS 
program officials to discuss exchanging terrorism-related documents, 
joint strategies for meeting mutual needs by leveraging resources have 
not been fully developed. DHS did not engage the RISS program to 
determine how resources could be leveraged to meet mutual needs. 
According to RISS program officials, they met with DHS twice (on 
September 25, 2003, and January 7, 2004) to demonstrate that their RISS 
ATIX application could be used by DHS for sharing homeland security 
information. However, communication from DHS on this topic stopped 
after these meetings, without explanation. According to DHS officials, 
they did not remember the meetings, which they attributed to the 
departure from DHS of the staff who had attended.
    In addition, although DHS initially pursued a limited strategy of 
exchanging selected terrorism-related documents with the RISS program, 
the strategy was impeded by technical issues and by differences in what 
each organization considers to be terrorism information. For example, 
the exchange of documents between HSIN and the RISS program stopped on 
August 1, 2006, because of technical problems with HSIN's upgrade to a 
new infrastructure. As of May 3, 2007, the exchange of terrorism-
related documents had not yet resumed, according to HSIN's program 
manager. This official also stated that the program is currently 
working to fix the issue with the goal of having it resolved by June 
2007.
    Finally, DHS has yet to fully develop coordination policies, 
procedures, and other means to operate across agency boundaries with 
the RISS program. DHS has not fully developed such means to operate 
with the RISS program and leverage its available technological 
resources. Although an operating agreement was established to govern 
the exchange of terrorism-related documents, according to RISS 
officials, it did not cover the full range of information available 
through the RISS program.

    DHS's Expedited Schedule Was Major Cause for Limited Coordination, 
Increasing the Risk of Ineffective Information Sharing and Duplication
    The extent of DHS's adherence to key practices (and the resulting 
limited coordination) is attributable to DHS's expedited schedule to 
deploy an information-sharing application that could be used across the 
federal government in the wake of the September 11 attacks; in its 
haste, DHS did not develop a complete inventory of key state and local 
information initiatives. According to DHS officials, they still do not 
have a complete inventory of key state and local information-sharing 
initiatives. DHS's Office of Inspector General also reported that DHS 
developed HSIN in a rapid and ad hoc manner, and among other things, 
did not adequately identify existing federal, state, and local 
resources, such as RISSNET, that it could have leveraged.\14\
---------------------------------------------------------------------------
    \14\ Department of Homeland Security Office of Inspector General, 
Office of Information Technology, HSIN Could Support Information 
Sharing More Effectively, DHS/OIG-06-38 (Washington, D.C.: June 2006).
---------------------------------------------------------------------------
    Further, DHS did not fully understand the RISS program. 
Specifically, DHS officials did not acknowledge the RISS program as a 
state and local based program with which to partner, but instead 
considered it to be one of many vendors providing a tool for 
information sharing. In addition, DHS officials believed that the RISS 
program was solely focused on law enforcement information and did not 
capture the broader terrorism-related or other information of interest 
to the department.
    Because of this limited coordination and collaboration, DHS is at 
increased risk that effective information sharing is not occurring. The 
department also faces the risk that it is developing and deploying 
capabilities on HSIN that duplicate those being established by state 
and local agencies. There is evidence that this has occurred with 
respect to the RISS program. Specifically:
        <bullet> HSIN and RISS ATIX currently target similar user 
        groups. DHS and the RISS program are independently striving to 
        make their applications available to user communities involved 
        in the prevention of, response to, mitigation of, and recovery 
        from terrorism and disasters across the country. For example, 
        HSIN and RISS ATIX are being used and marketed for use at state 
        fusion centers \15\ and other state organizations, such as 
        emergency management agencies across the country.
---------------------------------------------------------------------------
    \15\ A fusion center is defined as a ``collaborative effort of two 
or more agencies that provide resources, expertise, and information to 
the center with the goal of maximizing their ability to detect, 
prevent, investigate, and respond to criminal and terrorist activity.''
---------------------------------------------------------------------------
        <bullet> HSIN and RISS applications have similar approaches for 
        sharing information with their users. For example, on each 
        application, users from a particular community--such as 
        emergency management--have access to a portal or community area 
        tailored to the user's information needs. The community-based 
        portals have similar features focused on user communities. Both 
        applications provide each community with the following 
        features: \16\
---------------------------------------------------------------------------
    \16\ Beyond the collaboration tools listed, RISSNET also provides 
access to other law enforcement resources, such as analytical criminal 
data-visualization tools and criminal intelligence databases.
---------------------------------------------------------------------------
        <bullet> Web pages. Tailored for communities of interest (e.g., 
        law enforcement, emergency management, critical infrastructure 
        sectors), these pages contain general and community-specific 
        news articles, links, and contact information.
        <bullet> Bulletin boards. Participants can post and discuss 
        information.
        <bullet> Chat tool. Each community has its own online, real-
        time, interactive collaboration application.
        <bullet> Document library. Participants can store and search 
        relevant documents.

DHS Has Improvements Planned and Under Way, Including Implementing Our 
Recent Recommendations
    According to DHS officials, including the HSIN program manager, the 
department has efforts planned and under way to improve coordination. 
For example, the department is in the process of developing an 
integration strategy that is to include enhancing HSIN so that other 
applications and networks can interact with it. This would promote 
integration by allowing other federal agencies and state and local 
governments to use their preferred applications and networks--such as 
RISSNET and RISS ATIX--while allowing DHS to continue to use HSIN.
    Other examples of improvements either begun or planned include the 
following:
        <bullet> The formation of an HSIN Mission Coordinating 
        Committee, whose roles and responsibilities are to be defined 
        in a management directive. It is expected to ensure that all 
        HSIN users are coordinated in information-sharing relationships 
        of mutual value.
        <bullet> The recent development of engagement, communications, 
        and feedback strategies for better coordination and 
        communication with HSIN, including, for example, enhancing user 
        awareness of applicable HSIN contact points and changes to the 
        system.
        <bullet> The reorganization of the HSIN program management 
        office to help the department better meet user needs. According 
        to the program manager, this reorganization has included the 
        use of integrated process teams to better support DHS's 
        operational mission priorities as well as the establishment of 
        a strategic framework and implementation plan for meeting the 
        office's key activities and vision.
        <bullet> The establishment of a HSIN Advisory Committee to 
        advise the department on how the HSIN program can better meet 
        user needs, examine DHS's processes for deploying HSIN to the 
        states, assess state resources, and determine how HSIN can 
        coordinate with these resources. In addition to these planned 
        improvements, DHS has agreed to implement the recommendations 
        in our recent report. Specifically, we recommended that the 
        department ensure that HSIN is effectively coordinated with key 
        state and local government information-sharing initiatives. We 
        also recommended that this include (1) identifying and 
        inventorying such initiatives to determine whether there are 
        opportunities to improve information sharing and avoid 
        duplication, (2) adopting and institutionalizing key practices 
        related to OMB's guidance on enhancing and sustaining agency 
        coordination and collaboration, and (3) ensuring that the 
        department's coordination efforts are consistent with the 
        Administration's recently issued Information Sharing 
        Environment plan.\17\ In response to these recommendations, DHS 
        described actions it was taking to implement them. (The full 
        recommendations and DHS's written response to them are in 
        report.)
---------------------------------------------------------------------------
    \17\ As mentioned earlier, this plan is aimed at establishing, in 3 
years, the networks and other technologies that link people, systems, 
and information among all appropriate federal state, local, and tribal 
entities and the private sector.
---------------------------------------------------------------------------
    In closing, DHS has not effectively coordinated its primary 
information-sharing system with two key state and local initiatives. 
Largely because of the department's hasty approach to delivering needed 
information-sharing capabilities, it did not follow key coordination 
and collaboration practices and guidance or invest the time to 
inventory and fully understand how it could leverage state and local 
approaches. Consequently, the department faces the risk that effective 
information sharing is not occurring and that its HSIN application may 
be duplicating existing state and local capabilities. This also raises 
the issue of whether similar coordination and duplication issues exist 
with the other federal homeland security networks and associated 
systems and applications under the department's purview.
    DHS recognizes these risks and has improvements planned and under 
way to address them, including stated plans to implement our 
recommendations. These are positive steps and should help address 
shortfalls in the department's coordination practices on HSIN. However, 
these actions have either just begun or are planned, with milestones 
for implementation yet to be defined. Until all the key coordination 
and collaboration practices are fully implemented and 
institutionalized, DHS will continue to be at risk that the 
effectiveness of its information sharing is not where it needs to be to 
adequately protect the homeland and that its efforts are unnecessarily 
duplicating state and local initiatives.
    Madame Chair, this concludes my testimony today. I would be happy 
to answer any questions you or other members of the subcommittee may 
have.

    Ms. Harman. I thank you, Mr. Powner, for powerful testimony 
delivered in precisely 5 minutes.
    Mr. Kennedy, no pressure.
    [Laughter.]

 STATEMENT OF DONALD KENNEDY, EXECUTIVE DIRECTOR, NEW ENGLAND 
            STATE POLICE INFORMATION NETWORK, (RISS)

    Mr. Kennedy. Good morning. Chairman Harman and members of 
the subcommittee, I sincerely appreciate the opportunity to 
appear before you today to discuss efforts in the exchange of 
homeland security information and initiatives currently under 
way to leverage existing systems available to criminal justice 
agencies throughout our country.
    As stated by the chairman, I am currently the executive 
director of the New England State Police Information Network, 
one of the six regional information-sharing system centers in 
the United States, otherwise known as RISS.
    Having been a part of law enforcement for the past 33 
years, first serving 24 years as a member of the Rhode Island 
State Police and now serving as a member of the RISS program 
for the last 9 years, I have come to understand first-hand the 
importance of information sharing across all levels of 
government.
    Decades before terrorism moved into the forefront, RISS was 
established to combat crime and enhance public safety. The RISS 
program is a congressionally funded nationwide program 
supporting state, local, federal and tribal law enforcement, 
and prosecution efforts, with membership in all 50 states, the 
District of Columbia, U.S. territories, Australia, Canada, and 
England.
    The RISS program operates on a national basis, but provides 
support regionally through its six intelligence centers, which 
support and serve the unique needs of their individual regions. 
One of RISS's strengths is that each RISS center is governed by 
a policy board consisting of executives representing state, 
local and tribal law enforcement.
    RISS currently provides services to 75,000 access offices 
representing hundreds of thousands of law enforcement officers 
from all government levels. Some of those services that RISS 
provides includes analysis, training, confidential funds, 
equipment loans, and a telecommunications systems we call 
RISSNET.
    RISSNET was developed in 1997 and is a national system that 
was designed by and for state and local law enforcement. 
RISSNET provides its users with a variety of online resources, 
which include websites, bulleting boards, and intelligence 
databases that are managed and populated by the law enforcement 
community we serve.
    At RISS, we have always be cognizant of the need for 
communication interoperability between existing law enforcement 
systems, so much so that in the pat 10 years, RISS has 
partnered and linked our system to numerous other state, local 
and federal databases, as well as recently providing node 
connectivity to state fusion centers and intelligence centers 
throughout the U.S. so that data can be shared securely, using 
the RISS backbone, fusion center to fusion center.
    RISS has worked closely with DEA to develop the national 
virtual pointer system, which is a national database for 
narcotics traffickers, along with the Alcohol, Tobacco and 
Firearms to share their GangNet database; and the U.S. Secret 
Service, who share their dignitary protection database with our 
users, using our node connection to RISSNET.
    Continuing with this effort, soon after 9/11, RISS 
partnered with the FBI's law enforcement online system in an 
attempt to share data between the two systems. This partnership 
was referenced in the global national criminal intelligence 
sharing plan as systems that law enforcement should utilize in 
their information intelligence sharing using the Internet.
    After 9/11, RISS also approached the Department of Homeland 
Security to partner with their then-JRIES--Joint Regional 
Intelligence Exchange System. Several meetings were held, and 
several presentations were provided in the hopes that DHS would 
adopt the RISSNET system, or at least utilize some of the law 
enforcement or first responder resources we provide. For 
whatever reason, that did not come to fruition, and soon after 
JRIES became the Homeland Security Information Network.
    Recently, RISS again approached DHS and HSIN in an effort 
to better share law enforcement first responder documents. This 
dialogue ahs been quite successful as of late, and thanks to 
the hard work of folks like Theresa Phillips of Homeland 
Security in the HSIN program, we believe that we are closer to 
completing that particular RSS feed from Homeland's information 
network to the RISS environment.
    But we need to do more. We need to continue the dialogue 
between systems like RISS, LEO, HSIN and other systems that 
have a public safety mission or nexus. We need to discuss not 
only the sharing of documents, but the need for bidirectional 
communication and the interoperability of these systems so that 
we can technically accomplish what I call a single log-on 
capability where if I, as a HSIN user, would like to get to a 
RISS or a LEO resource, that I can do that without having to 
log-off from that system and log-on to one of those other two 
systems.
    The time is right for this technical solution to occur. 
RISS has been working very hard and has developed a way in 
which this will work and work successfully. RISS stands ready 
to meet and discuss and work with the policymakers and 
technical staffs of both DHS and DOJ to make this goal a 
reality. But first we need buy-in by the senior leadership of 
both DOJ and DHS.
    Madam Chairman, I thank you and your colleagues for giving 
me this opportunity to speak with you today. I hope that my 
comments have been of use to you.
    [The statement of Mr. Kennedy follows:]

                Prepared Statement of Donald F. Kennedy

    Chairman Thompson, Ranking Member King, Chairwoman Harman, and 
Members of the Subcommittee, I sincerely appreciate the opportunity to 
appear before you today to discuss efforts in the exchange of homeland 
security information and initiatives currently under way to leverage 
existing systems available to criminal justice agencies in our country.
    I currently serve as the Executive Director of the New England 
State Police Information Network (NESPIN), one of the six Regional 
Information Sharing Systems (RISS) centers. Prior to being named 
Executive Director, I served as NESPIN's Deputy Director of Field 
Services after retiring as a captain from the Rhode Island State 
Police, having served in all bureaus and divisions within the state 
police for 24 years. In my career, I have been afforded the opportunity 
to actively participate in many aspects of law enforcement, from patrol 
to policymaker. In those roles, I have come to understand firsthand the 
importance of information sharing across all levels of government.
    Decades before terrorism moved to the forefront, RISS was 
established to combat crime and enhance public safety. The RISS Program 
is a congressionally funded, nationwide program supporting local, 
state, federal, and tribal law enforcement and prosecution efforts, 
with membership in the 50 states, the District of Columbia, U.S. 
territories, Australia, Canada, and England. The RISS Program operates 
on a national basis but provides support regionally through its six 
regional intelligence centers, which support and serve the unique needs 
of their individual regions. The six RISS centers and the areas which 
they serve are:
        <bullet> Middle Atlantic-Great Lakes Organized Crime Law 
        Enforcement Network (MAGLOCLEN): Delaware, District of 
        Columbia, Indiana, Maryland, Michigan, New Jersey, New York, 
        Ohio, and Pennsylvania, as well as Australia, Canada, and 
        England.
        <bullet> Mid-States Organized Crime Information Center (MOCIC): 
        Illinois, Iowa, Kansas, Minnesota, Missouri, Nebraska, North 
        Dakota, South Dakota, and Wisconsin, as well as Canada.
        <bullet> New England State Police Information Network (NESPIN): 
        Connecticut, Maine, Massachusetts, New Hampshire, Rhode Island, 
        and Vermont, as well as Canada.
        <bullet> Regional Organized Crime Information Center (ROCIC): 
        Alabama, Arkansas, Florida, Georgia, Kentucky, Louisiana, 
        Mississippi, North Carolina, Oklahoma, South Carolina, 
        Tennessee, Texas, Virginia, and West Virginia, as well as 
        Puerto Rico and the U.S. Virgin Islands.
        <bullet> Rocky Mountain Information Network (RMIN): Arizona, 
        Colorado, Idaho, Montana, Nevada, New Mexico, Utah, and 
        Wyoming, as well as Canada.
        <bullet> Western States Information Network (WSIN): Alaska, 
        California, Hawaii, Oregon, and Washington, as well as Canada 
        and Guam.
    Each RISS center is governed by a policy board or executive 
committee, composed of representatives from member agencies in the 
center's multistate region. The RISS National Policy Group is composed 
of the six Directors of the RISS centers and the chair of each center's 
policy board. The RISS National Policy Group is responsible for 
strategic planning, resolution of operational issues, advancement of 
information sharing, and decision making affecting the six RISS 
centers, the national organization, service delivery, member agencies, 
and related partner organizations.
    The RISS Program strives to enhance the ability of criminal justice 
agencies to identify, target, and remove criminal conspiracies and 
activities spanning multijurisdictional, multistate and, sometimes, 
international boundaries. RISS facilitates rapid exchange and sharing 
of information among the agencies pertaining to known suspected 
criminals or criminal activity and enhances coordination and 
communication among agencies that are in pursuit of criminal 
conspiracies determined to be interjurisdictional in nature.
    RISS is a force multiplier in fighting increased violent criminal 
activity by terrorists, drug traffickers, sophisticated cybercriminals, 
gangs, and emerging criminal groups that require a cooperative effort 
by local, state, federal, and tribal law enforcement. There is an 
increasing communications sophistication by the criminal networks, 
including terrorists, and a rising presence of organized and mobile 
narcotics crime. Interagency cooperation in sharing information has 
proven to be the best method to combat this increasing criminal 
activity. The RISS centers are filling law enforcement's need for 
rapid, but controlled, sharing of information and intelligence 
pertaining to known or suspected terrorists and other criminals. 
Congress funded the RISS Program to address this need, as evidenced by 
its authorization in the Omnibus Crime Control and Safe Streets Act, 
Part M.
    RISS provides diverse and valuable services and tools directly to 
detectives and investigative units within local, state, regional, 
federal, and tribal criminal justice entities, making RISS a 
comprehensive and universal program. These services and tools include 
investigative and intelligence analysis, secure national information 
sharing and communications capabilities, specialized investigative 
equipment, investigative funds support, criminal activity bulletins and 
publications, training, and other investigative support and technical 
services (Attachment A).
    The Bureau of Justice Assistance (BJA) administers the RISS Program 
and has established guidelines for provision of services to member 
agencies. The RISS centers are subject to oversight, monitoring, and 
auditing by the U.S. Congress; the U.S. Government Accountability 
Office, a federally funded program evaluation office; the U.S. 
Department of Justice (DOJ), BJA; and local and state governmental 
units. BJA also monitors the RISS centers for 28 Code of Federal 
Regulations (CFR) Part 23 compliance. The 28 CFR Part 23 regulation 
emphasizes adherence to individual constitutional and privacy rights 
and places stricter controls on the RISS intelligence sharing function 
than those placed on most local, state, or federal agencies. RISS 
supports and has fully operated in compliance with 28 CFR Part 23 since 
its inception. RISS firmly recognizes the need to ensure that 
individuals' constitutional rights, civil liberties, civil rights, and 
privacy interests are protected throughout the intelligence process. In 
this regard, RISS officials adopted a RISS Privacy Policy to further 
strengthen their commitment and support of 28 CFR Part 23 and 
protection of individual privacy rights.
    RISS has served as a pioneer, forging the way for today's 
information sharing age. In 1997, through funding from Congress, RISS 
implemented and continues to operate the secure Web-based nationwide 
law enforcement network known as RISSNET. RISSNET offers state-of-the-
art technology to address and support law enforcement demands for rapid 
communication and sharing of information. RISSNET provides the 
communications backbone and infrastructure for sharing investigative 
and intelligence information, offers secure sensitive but unclassified 
electronic communications, and provides controlled access to a variety 
of sensitive information resources.
    Currently, RISS serves over 7,700 law enforcement and criminal 
justice agencies from all levels of government. Over 75,000 access 
officers, representing hundreds of thousands of law enforcement 
officers from all government levels, are able to access the databases 
of six regional RISS centers and other intelligence systems from a 
single query--member agencies have bidirectional access to a number of 
state, regional, federal, and specialized criminal intelligence systems 
electronically connected to RISSNET. Examples of agencies connected to 
RISSNET include the Clandestine Laboratory Seizure System at the El 
Paso Intelligence Center (EPIC); the National Drug Pointer Index 
(NDPIX); the Law Enforcement Intelligence Unit (LEIU) Database; the 
National White Collar Crime Center (NW3C); Nlets--The International 
Justice and Public Safety Information Sharing Network; the California 
Department of Justice, Bureau of Investigation, Intelligence Database; 
the Criminal Information Sharing Alliance network (CISAnet); the Oregon 
State Intelligence Network; the Utah Law Enforcement Information 
Network; the Wyoming Criminal Justice Information Network; and the 
Colorado Law Enforcement Intelligence Network. The Executive Office for 
United States Attorneys has also connected staff to RISSNET, as well as 
all of the 93 U.S. Attorneys' Offices Anti-Terrorism Task Forces 
throughout the United States. In addition, staff at DOJ, Criminal 
Division, have connected to RISSNET.
    In this world of rapidly changing technology and with the increased 
need to provide timely, accurate, and complete information to law 
enforcement and public safety professionals, the ability to connect 
critical systems and streamline the ability to house, share, inquire, 
and disseminate information and intelligence is paramount. Through 
RISS's trusted system, the ability for law enforcement to target, 
investigate, and prosecute crime continuously improves. RISS also 
provides valuable collaboration with others who have experienced 
similar crime problems or who are investigating the same or similar 
crime.
    RISS has also entered into a partnership with the High Intensity 
Drug Trafficking Areas (HIDTA) to electronically connect all of the 
HIDTAs to RISSNET for communications and information sharing. 
Currently, 18 HIDTAs are electronically connected as nodes to RISSNET. 
RISS is working to complete the connection of the remaining HIDTAs. 
RISS has partnered with the HIDTAs and Nlets to create the National 
Virtual Pointer System (NVPS). The NVPS, which became operational in 
June 2004, is an automated system that connects existing deconfliction 
pointer databases into one virtual pointer system. RISS has also 
developed an officer safety deconfliction system, RISSafe, to be 
accessible by member agencies for the purpose of identifying potential 
conflict in operational cases.
    RISS has emerged as one of the nation's most important law 
enforcement intelligence sharing networks and continues to support 
efforts to expand and improve information sharing. The partnerships 
RISS has formed with fellow criminal justice and public safety agencies 
has allowed for this unprecedented level of information and 
intelligence to be exchanged through RISSNET. As a result, it is 
critical to ensure that the information is secure and available only to 
those with authorized access. RISSNET protects information through use 
of encryption, smart cards, Internet protocol security standards, and 
firewalls to prevent unauthorized access. The criminal intelligence 
information accessed through RISSNET is controlled by its local, state, 
federal, and tribal law enforcement member agency owners. The technical 
architecture adopted by RISS requires proper authorization to access 
information but also provides flexibility in the levels of electronic 
access assigned to individual users based on security and need-to-know 
issues. RISSNET supports secure e-mail and is easily accessible using 
the Internet. This type system and architecture is referenced and 
recommended in the General Counterdrug Intelligence Plan (GCIP) and is 
endorsed by the National Criminal Intelligence Sharing Plan (NCISP).
    The NCISP represents law enforcement's commitment to ensure that 
the ``dots are connected,'' be it in crime or terrorism. The Plan 
supports collaboration and fosters an environment in which all levels 
of law enforcement can work together to improve the safety of the 
nation. The Plan is the outcome of an unprecedented effort by local, 
state, federal, and tribal law enforcement officials at all levels, 
with the strong support of DOJ, to strengthen the nation's security 
through better intelligence analysis and sharing.
    The NCISP provides in Recommendation 21 that RISS and the Federal 
Bureau of Investigation (FBI) Law Enforcement Online (LEO) systems, 
which interconnected September 1, 2002, as a virtual single system, 
shall provide the initial sensitive but unclassified secure 
communications backbone for implementation of a nationwide criminal 
intelligence sharing capability. In addition to providing secure 
communications, the RISS Program has embraced and integrated many of 
the recommendations contained in the NCISP. For example, RISS is 
developing a security architecture solution to allow users with various 
types of security credentials to connect and traverse RISSNET to share 
information and access resources without being required to use the RISS 
specific security credentials. This project, known as the Trusted 
Credential Project, will promote interoperable connectivity among 
information sharing systems, allow bidirectional sharing, and enhance 
critical information exchange.
    RISS is also embarking on an initiative to streamline the process 
for RISS users to access RISSNET resources. Known as the RISSNET 
Portal, it will provide users with one entry point for RISSNET, 
allowing them to instantly view and access all RISSNET resources from 
one location. In addition, RISS is moving to an industry standards-
based SSL authentication technology. SSL technology is a mature 
technology for the transmission of encrypted information and is 
supported by all major Internet browsers. These three initiatives--the 
Trusted Credential Project, RISSNET Portal, and SSL--will work in 
unison and represent the natural next steps for enhancing RISS 
technology and service to its members.
    In the aftermath of 9/11, RISS recognized the critical need for 
timely exchange of national security and terrorist threat information, 
not only among law enforcement officials but to all first responders 
and officials involved in homeland security. As a result, RISS created 
the Automated Trusted Information Exchange (ATIX). ATIX is a 
communication system that allows first responders, critical 
infrastructure personnel, and other public safety personnel--including 
firefighters and public utility and school personnel and local, state, 
and federal law enforcement--to share terrorism and homeland security 
information in a secure, real-time environment. Through ATIX, users 
access the RISS ATIX Web pages and library, the ATIX bulletin board, 
ATIXLive, and secure e-mail.
    In its first year of connectivity, ATIX was selected as the 
official system for secure communication and information sharing for 
the G8 Summit in 2004 by the team in charge of security and 
communications, which included the FBI, the U.S. Secret Service, the 
Georgia Bureau of Investigation, the Georgia Office of Homeland 
Security, and the Georgia Information Sharing and Analysis Group. In 
2005, the ability for ATIX to be successfully utilized in the aftermath 
of a disaster was demonstrated when it served as a communication tool 
following Hurricane Katrina. RISS provided logistical support to law 
enforcement in the damaged areas to receive water, clothing, food, 
medical supplies, information, and equipment. In addition, RISS 
prepared intelligence assessments on gang and criminal activity, which 
aided law enforcement response following the hurricane. In 2006, ATIX 
demonstrated its communications power during a plane crash incident in 
Delaware, when a C-5 cargo plane, laden with supplies for U.S. troops 
in Iraq, crashed after takeoff from Dover Air Force Base. The Delaware 
Information Analysis Center (DIAC), through its use of ATIX, 
communicated the incident to appropriate officials and personnel ten 
minutes prior to media reports of the incident. This allowed law 
enforcement and first responders to coordinate efforts, assess the 
situation, and secure the scene. And today, some state homeland 
security offices, such as DIAC, use ATIX to communicate critical 
information on a daily basis. In Delaware, more than 100 users across 
21 discipline communities involved in their multijurisdictional, 
multiagency response to all crimes and all hazards utilize ATIX as a 
primary tool to communicate on a daily basis.
    In the months following the creation and deployment of ATIX, RISS 
reached out to the U.S. Department of Homeland Security (DHS) and other 
federal agencies to offer the infrastructure support and services 
available through RISSNET. It was also during this time that DHS was 
transitioning from the Joint Regional Information Exchange System 
(JRIES) to the Homeland Security Information Network (HSIN) as a means 
of expanding to include more communities. In July 2005, at the 
culmination of numerous briefings and meetings, an executive meeting 
was held to discuss interoperability and interconnection of the JRIES/
HSIN, RISS, and LEO. At that time, a joint decision was made by 
policymakers from RISS, DOJ, DHS, and FBI to demonstrate 
interoperability of the systems within a short time frame of 60 days. 
The parties collaborated to produce a technical white paper describing 
the information sharing project and a memorandum of understanding. The 
ultimate goal of this project was to quickly demonstrate the capability 
to create a seamless connection between systems, permitting users of 
the individual systems to access unique tools, resources, and 
capabilities of all the systems through the current access method.
    Although not all the aspects of this initiative came to fruition, 
RISS and DHS still created an information sharing partnership. During 
the past two years, RISS has continued to work with DOJ and DHS on what 
has evolved into the Counterterrorism Collaboration Interoperability 
Project (CCIP). CCIP is a partnership among RISS, HSIN, LEO, and 
CISAnet that allows the participating partner systems to publish 
documents for access by authorized users of the other participating 
partners? systems via the use of Really Simple Syndication (RSS) feeds. 
This project has been recognized as a model for all agencies that will 
share information, as required by Presidential Executive Order 13388, 
Strengthening the Sharing of Terrorism Information to Protect 
Americans.
    While significant strides have been made in the implementation of 
the CCIP, much work still remains. For example, a disruption in the RSS 
feeds from HSIN to RISSNET has resulted in a daily search effort by 
RISS technical staff to access documents posted on the HSIN Law 
Enforcement and HSIN Emergency Management sites. Through the limited 
access that RISS has been granted to HSIN, a concerted effort is made 
to identify and retrieve information available on HSIN, which could be 
provided automatically through RSS feeds, and post this information on 
ATIX for access by thousands of users.
    In addition to the CCIP, RISS is also involved in other critical 
initiatives with federal agencies to assist in their efforts to 
facilitate the exchange of criminal intelligence with local and state 
law enforcement. As the only nonfederal agency or organization involved 
in the Law Enforcement Information Sharing Program (LEISP), RISS has 
the unique opportunity to participate in the this critical initiative 
with DHS and DOJ to demonstrate applicability of federated identity 
management as a tool to enhance information sharing. In addition, RISS 
has been invited to participate in a Secure But Unclassified (SBU) 
Networks/Systems Collaboration Effort initiative from the Information 
Sharing Council, tasked to the Program Manager--Information Sharing 
Environment. This effort is focused on sharing SBU terrorism 
information and identifying capabilities necessary for a SBU Network/
System to be included in the Information Sharing Environment. RISS is 
pleased to receive these invitations, have the opportunity to assist in 
the development of national strategies for information sharing, and be 
recognized for its significant role in advocating for local and state 
agencies who depend on RISSNET as a system of systems for information 
sharing.
    Local and state law enforcement, which depend on the RISS centers, 
must be leveraged and included in an information sharing plan. The more 
than 800,000 law enforcement officers and over 19,000 police agencies 
in this country are part of the frontline defense in domestic security. 
Important intelligence/information that may forewarn of a future attack 
is collected by local and state government personnel through their 
routine activities. The critical importance of intelligence for 
frontline police officers cannot be overstated. And without the benefit 
of intelligence, local and state law enforcement cannot be expected to 
be active partners in protecting our communities from terrorism. The 
RISS Program aims to represent these frontline officers in the quest 
for increased terrorism information sharing in our nation and strives 
to provide a platform for all areas of homeland security to work 
together to detect, deter, and prevent terrorist activities and to 
improve the safety of our nation. As demand from citizens continues to 
increase for the country to be ready and prepared and funds continue to 
tighten, it will be critical to leverage available resources and 
expertise.
    The ultimate goal of RISS is to develop and enhance bidirectional 
systems access and provide secure real-time information, enabling all 
participants to share information to enhance the investigative process, 
in furtherance of recommendations in the National Criminal Intelligence 
Sharing Plan. Having a trusted sharing environment for communicating 
information and intelligence is a priority issue. There are a number of 
national systems and networks that local, state, and tribal law 
enforcement agencies utilize for information sharing efforts, including 
RISS, LEO, and HSIN. Each of these systems offers unique resources and 
provides essential information to its primary users. However, the power 
of these systems linked is exemplary of the whole being greater than 
the sum of its parts. A true success would be the creation of a 
``system of systems'' that is accessible by hundreds of thousands of 
criminal justice and homeland security officials, as well as first 
responders and private sector partners who aid our country in the 
battle against terrorism.
    Currently, users must sign on to multiple systems in order to 
access information. Rather than develop new systems, it is recommended 
that the existing networks and systems be modified and augmented based 
on continuing information needs. The federal government should provide 
the funding needed to leverage existing information sharing systems and 
expand intelligence sharing by executing interoperability between 
operating systems at the local, state, regional, federal, and tribal 
levels using a federated identification methodology. Local, state, and 
tribal users should be able to access all pertinent information from 
disparate systems with a single sign-on, based on the user's 
classification level and need to know.
    In order to succeed, we must bridge the remaining gaps between 
local, state, and federal intelligence agencies and homeland security 
information consumers. If we are to continue to successfully deter and 
prevent attacks, we must work as one united force to combat all crimes.
    Over the last few years, RISS has seen increased interest by 
individuals, agencies, and organizations to use RISSNET as their 
primary communications system and to partner with RISS on a variety of 
critical projects and initiatives. RISS is eager to meet this demand 
and continually partners with law enforcement and criminal justice 
agencies to fully develop an efficient and effective information 
sharing environment. However, this demand is draining RISS's resources, 
and additional funds are needed to ensure that law enforcement and the 
criminal justice community continue to improve both their information 
sharing and investigative capabilities in order to most effectively 
protect public safety.
    In Fiscal Year (FY) 2007, RISS was appropriated $39.719 million, 
the same level appropriated in fiscal year 2006. For fiscal year 2008, 
the President's Budget includes $38.5 million, $1.219 million less than 
the fiscal year 2007 appropriation. Based on the needs of local and 
state law enforcement throughout the country, as well as the demand for 
increased safeguarding against terrorism, gangs, violent crimes, and 
other critical crime problems, RISS has requested $53.7 million.
    To combat crime, there must be continued funding support to 
programs like RISS, which have demonstrated decades of success in 
fighting crime, advancing technology, and enhancing officer safety. 
Through this strategy, we can maximize available funding, eliminate 
duplication, and accomplish more with less.
    Mr. Chairman, I thank you and your colleagues for giving me the 
opportunity to speak to you today, and I hope my comments have been of 
some use to you in your deliberations.
ATTACHMENT A: The Regional Information Sharing Systems
    Each RISS center offers basic services to member agencies. 
Traditional services include information sharing, analysis, 
telecommunications, equipment loans, confidential funds, training, and 
technical assistance.
        <bullet> Information Sharing--The operation of RISSNET and its 
        various applications enhances information sharing and 
        communications among RISS members by providing various secure 
        databases and investigative tools. Each RISS center develops 
        and provides access to specialized information sharing systems 
        for use by its member agencies.
        <bullet> Analysis--RISS center personnel create analytical 
        products for investigative and prosecutorial use. RISS develops 
        flowcharts, link-analysis charts, crime scene diagrams, 
        telephone toll analysis reports, and financial analysis reports 
        and provides computer forensics analysis. Staff also provide 
        video and audio enhancement services.
        <bullet> Investigative Support--Each center maintains a staff 
        of intelligence technicians that support member agencies with a 
        variety of investigative assistance. Staff conduct database 
        searches, utilize all RISS applications, and process batch 
        uploads. Intelligence technicians respond to thousands of 
        requests and questions.
        <bullet> Field Operations--Centers maintain field service 
        coordinators who dedicate their time visiting and liaising with 
        RISS member agencies to coordinate delivery of RISS services. 
        This personal interaction with member agencies significantly 
        improves information sharing and ensures that member agencies 
        are provided quality and timely service.
        <bullet> Telecommunications--RISSNET is the communications 
        backbone that supports electronic access and exchange of 
        information by RISS users. The network provides a secure 
        platform for communications, as well as access to various state 
        and federal intelligence systems across the country. RISSNET 
        provides member agencies with a secure, rapid means to access 
        RISS resources. In addition to RISSNET, several RISS centers 
        operate long-distance telecommunications, or WATS services, to 
        facilitate toll-free contact between RISS member agencies 
        working jointly on investigations.
        <bullet> Equipment Loans--Pools of specialized and surveillance 
        equipment are available for loan to member agencies for use in 
        support of multijurisdictional investigations.
        <bullet> Confidential Funds--Member agencies can use funds to 
        purchase information, contraband, stolen property, and other 
        items of an evidentiary nature or to provide for other 
        investigative expenses related to multijurisdictional 
        investigations. The availability and use of confidential funds 
        are strictly controlled by federal guidelines, and internal 
        policies and procedures are developed by each center.
        <bullet> Training and Publications--RISS centers sponsor or 
        cosponsor meetings and conferences that build investigative 
        expertise for member agency personnel. Subject areas include 
        anti-terrorism, crime-specific investigative and surveillance 
        techniques, specialized equipment, officer safety, and 
        analytical techniques. In addition, each center researches, 
        develops, and distributes numerous publications, such as 
        bulletins, flyers, and criminal intelligence publications.
Centers also offer additional services based on regional and member 
agency needs.

    Ms. Harman. I thank the witness.
    We will now hear from our final witness, Mr. Parent.
    Let me say that votes are expected soon. Hopefully, we will 
get through all the testimony. If there is more time before the 
votes are called, it is my intention--and I hope all the 
members will agree with this--to ask the godfather of this 
hearing, Mr. Langevin, to ask the first questions.
    Mr. Parent, you are recognized for 5 minutes.

     STATEMENT OF WAYNE PARENT, DEPUTY DIRECTOR, OFFICE OF 
 OPERATIONS COORDINATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Parent. Good morning, Madam Chairman, members of the 
subcommittee. I am Wayne Parent, the deputy director of the 
Office of Operations Coordination at the Department of Homeland 
Security. I am pleased to appear before this subcommittee. 
Thank you for the opportunity to discuss the Homeland Security 
Information Network and to provide an update on the 
department's continuing efforts to improve information sharing 
with HSIN.
    Before I begin my testimony, I would like to thank 
Congresswoman Harman for all of her efforts on information 
sharing. I know that you have been active in this arena for 
years, working to ensure efficient and timely vertical and 
horizontal information sharing. I look forward to working with 
you and the members of the subcommittee on a path forward for 
HSIN.
    The DHS mission requires a robust information-sharing 
environment. Assorted efforts have been under way to connect 
the department with our stakeholders, the state, local, and 
tribal entities, the private sector and other federal partners. 
One of the most important tools DHS has to facilitate 
information sharing in the sensitive-but-unclassified 
environment is HSIN.
    Although various issues have at times hampered the 
effectiveness and the use of HSIN, it remains an important tool 
in the fulfillment of the department's mission. Previously 
released GAO and DHS inspector general reports have called 
attention to many shortcomings, and action has been taken by 
the Office of Operations Coordination to address many of these 
recommendations. I have included specifics on those actions in 
my written testimony, but I would like to address just a few of 
the improvements that have been made to HSIN over the past 
year.
    In response to concerns expressed by the DHS IG, the GAO 
and this subcommittee, we have instituted a strategy for the 
management of HSIN, as well as a requirements evaluation 
process. These are key elements of any program, but previously 
missing in HSIN.
    Many of the previous criticisms of HSIN have centered on 
poor communication with stakeholders. We have established the 
HSIN Mission Coordination Council, or HMCC, to work HSIN issues 
within DHS. For stakeholders outside of DHS, just this week we 
released a solicitation for members to the HSIN Advisory 
Council, which will be a key body for collecting state, local 
and private-sector issues and recommendations. The first 
meeting of the HSIN Advisory Council will be held in August of 
this year.
    Within the last month, we have hired a person to engage 
full-time on issues pertaining to the information-sharing 
environment. This will ensure that HSIN stays aligned with the 
efforts and recommendations of the ISE. In addition, this 
person will spearhead an effort to measure content quality 
within the key communities of HSIN.
    The National Operations Center carries the DHS common 
operating picture on HSIN. This common operating picture, or 
COP, which was fielded last year in response to Hurricane 
Katrina lessons learned, is a key element of national incident 
management and provides critical situational awareness for 
stakeholders and DHS leadership during an incident. It includes 
pre-incident, obviously.
    The COP has recently been upgraded to include the 
integrated common analytic viewer, or iCAV, a state-of-the-art 
GIS mapping package that has been strongly desired by our 
stakeholders going back several years in the state, local and 
private sectors. It is a good system. Within incident 
management, HSIN is the information-sharing tool that brings 
all of the DHS components and external partners together to 
maximize situational awareness and support decisionmaking.
    Finally, we know that a system must be user-friendly, and 
HSIN has not enjoyed that evaluation. We have worked to improve 
customer service by establishing a single sign-on mechanism 
within HSIN, and also increasing the loading capability to 
prevent slow-downs on system time, and in also developing a 
more focused stakeholder outreach program.
    This program also includes the addition of an automated 
feedback process, or feedback button, on the user portals which 
never existed previously. This system will be operational in 
August 2007.
    I think it is important for me to state that DHS is 
committed to integrating HSIN with other interagency 
information-sharing systems. Our intent is for HSIN to leverage 
existing platforms designed to share information in order to 
increase information-sharing efficiency among our partner 
organizations and their existing systems. Our HSIN strategy is 
not to duplicate capability that already exists, but to 
leverage existing capability.
    With the HSIN Joint Program Management Office and our new 
program manager, we are pushing ahead to ensure the ability and 
capability of HSIN to get relevant information to and from our 
stakeholders in a more increasing manner. As we look to the 
future, we will continue the pattern of recent program 
enhancements and outreach efforts. We recognize that work must 
continue to ensure increasing connectivity and interoperability 
with all of our DHS partners. We are committed.
    Thank you for this opportunity to testify today, and I look 
forward to answering your questions.
    [The statement of Mr. Parent follows:]

                   Prepared Statement of Wayne Parent

    Good morning, Madam Chairman, Ranking Member Reichert, and Members 
of the Subcommittee. I am Wayne Parent, Deputy Director of the Office 
of Operations Coordination at the U.S. Department of Homeland Security 
(DHS). I am pleased to appear today before this Subcommittee. Thank you 
for inviting me today to discuss the Homeland Security Information 
Network (HSIN) and to provide an update on the Department's continuing 
efforts to improve information sharing and HSIN.
    The DHS mission demands a robust information sharing environment. 
Key to addressing information sharing requirements is the ability to 
share information both vertically and horizontally. Assorted efforts 
are underway to connect the Department with our stakeholders: state, 
local, and tribal entities, the private sector and other federal 
partners. One of the most important tools DHS has to maximize 
information sharing in the sensitive but unclassified environment is 
HSIN.

Background
    As you are aware, HSIN is a set of commercially secure web-based 
portals through which DHS provides real-time operation information and 
decision support, shares documents, supplies situational awareness and 
collaboration opportunities, and provides alerts, warnings and 
notifications. HSIN operates at the Sensitive-But-Unclassified (SBU) 
level from which threat and incident management information is 
collected and shared between all levels of government.
    Although complex issues have, at times, hampered the effectiveness 
and use of HSIN, it remains an important tool in the fulfillment of the 
Department's mission. Previously released GAO and DHS Inspector General 
Reports have called attention to certain shortcomings, and action has 
been taken by the Office of Operations Coordination to address their 
various recommendations. Specifically, in response to these 
shortcomings, Operations has, among other efforts:

        <bullet> Improved Management
        In November 2006, our office hired the first Program Manager 
        (PM) for HSIN and stood up a Joint Program Management Office 
        (JPMO). Since starting, the PM has created integrated project 
        teams to establish programmatic discipline and to 
        systematically address the network's development and use. The 
        PM has initiated formal assessments of the system's 
        vulnerabilities, redundancy, survivability and training. 
        Additionally, the PM has identified key performance measures to 
        gain a better understanding of the network's operation and use 
        and guide future improvements. Of note, the PM initiated and 
        completed an extensive review of HSIN, which I will discuss in 
        more detail today. The review resulted in the creation of a 
        HSIN Strategic Framework Implementation Plan.

        <bullet> Assessed the Policy and Strategy Framework for HSIN
        In October of 2006, the Office of Operations Coordination stood 
        up the HSIN Working Group which conducted an internal review of 
        HSIN and issued a final report that provided recommendations to 
        DHS leadership on the required actions or decisions to make 
        HSIN a more effective and efficient program. The working group 
        was comprised of representatives from various DHS components. 
        Key recommendations were:
        (1) Establish clearly defined requirements processes;
        (2) Develop HSIN into a capable information sharing, 
        communication, and collaboration solution;
        (3) Identify the user and technical requirements of HSIN; and
        (4) Develop metrics to periodically assess the program
        These recommendations formed the basis of the HSIN Strategic 
        Framework Implementation Plan that was finalized in December 
        2006.

        <bullet> Created the framework for the HSIN Mission 
        Coordinating Committee (HMCC)
        The HMCC consists of DHS mission component representatives who 
        plan to or are currently utilizing HSIN to support their 
        operation mission requirements. The goal of the HMCC is to 
        identify and validate operational enhancements to HSIN that are 
        critical to the successful accomplishment of the mission of DHS 
        components and the external partners they represent. Through 
        these efforts, we can plan for a prioritized delivery of 
        solutions that meet mission-operational needs.

        <bullet> Create the HSIN Advisory Committee (HSINAC)
        A Federal Advisory Committee Act (FACA) compliant advisory 
        committee is being formed to provide independent advice and 
        recommendations to DHS leadership, particularly the Office of 
        Operations Coordination Director, on HSIN requirements of end 
        users within State, Local, Federal and Tribal governments and 
        the Private Sector.

        The advisory committee efforts will initially focus on: 
        operational requirements necessary for effective information 
        sharing and incident management; compatibility and 
        interoperability between HSIN and other relevant information 
        networks, databases, and resources of State, Local, Federal, 
        Tribal, and Private Sector entities; and the security, 
        integrity, and safety of HSIN resources and contents.

        The Federal Register notice announcing the formation of the 
        HSINAC was posted on October 20, 2006. The Federal Register 
        notice soliciting members for the committee was published 
        earlier this week. Our goal is to have our first meeting of the 
        advisory committee this summer.
Interagency Integration

        The Office of Operations Coordination is committed to 
        integrating HSIN with other interagency information sharing 
        systems. The intent is for HSIN to leverage existing platforms 
        designed to share information so as to increase information 
        sharing efficiency among partnership organizations and their 
        existing systems. As such, we are working to establish a 
        technical means to seamlessly utilize information resident on 
        other platforms. This enables HSIN to both serve the internal 
        needs of DHS missions, while also addressing the convergence of 
        DHS missions with those of other agencies.

Some of our current initiatives focused on interagency integration 
include:
        Reestablish Connection between HSIN and RISS
        The initiative to reconnect the technological bridge between 
        the HSIN and the Regional Information Sharing System (RISS) is 
        nearing completion. In June 2006, when HSIN completed a 
        technology refresher that moved HSIN from the old JRIES 
        technology platform to its current platform, the bridge was 
        inadvertently severed and not reconnected. Reconnecting this 
        bridge will allow pre-defined information to automatically flow 
        back and forth between the two systems.

        Additionally, the original agreement between HSIN and RISS only 
        allowed for very narrowly defined information to be passed 
        between the systems. This definition mandated that the content 
        be specifically identified as terrorism information. We are 
        working to incorporate a more liberal, flexible definition such 
        as suspicious activity that may later be deemed terrorist 
        related. The expansion of content will enhance information 
        delivery over a single platform; maximizing the usefulness of 
        both systems.

Intelink-U
    HSIN will provide a link to Intelink-Unclassified, affording access 
to the content and contacts available on this online compendium of 
resources. Intelink-U is well-used content repository. This enhancement 
will provide a broad range of relevant information to HSIN users who 
may not have another way to access this valuable resource.

        Federated Identity Management
        The JPMO is actively involved in an Office of the Program 
        Manager-Information Sharing Environment (PM-ISE)-sponsored, 
        Department of Justice-led pilot project for Federated Identity 
        Management. Federated identity management is a systematic 
        effort to create a single sign-on for multiple secure websites. 
        Our office understands the long-term possibilities and benefits 
        of this pilot and is committed to the effort.
        Federated identity management will allow authorized HSIN users 
        to seamlessly traverse other participating programs' systems, 
        gaining access to content and tools that are not available on 
        HSIN. It will also permit other authorized system members to 
        gain access to the tools and content on HSIN. This is a 
        significant step in the direction of eliminating duplication 
        and maximizing existing systems across the entire landscape of 
        the ISE. HSIN, Law Enforcement Online (LEO), and RISS are all 
        participants in this groundbreaking pilot. Once identity 
        management has been federated--including federation to the 
        state fusion centers and critical infrastructure Sector 
        Coordinating Councils--it will provide a basis for such 
        advanced capabilities as fine-grained dissemination control 
        based on the recipient's identity, role, and organizations/
        communities to which the recipient belongs.

        Data Exchange Hub
        The Office of Operations Coordination is working towards an 
        initial operating capability between HSIN and a Data Exchange 
        Hub (DEH) that connects the National Capital Region's emergency 
        management systems. The DEH will enable a two-way transfer of 
        information between multiple reporting systems within the NCR 
        (to include WebEOC) with HSIN. The success of this initiative 
        is expected to result in a repeatable process that can be used 
        throughout the nation to connect HSIN to emergency operation 
        centers that use different communication platforms.
HSIN Utilization
    Over the past nine months, numerous improvements and enhancements 
to HSIN have been made and I believe it has the potential become the 
information sharing and situational awareness tool it was envisioned to 
be. For instance, DHS National Operations Center (NOC) notifications, 
which alert leadership and key stakeholders when incidents occur, are 
posted on HSIN through the COP. Additionally, HSIN supports the 
National Incident Management System (NIMS) by becoming the primary 
national hub for communications and information during major domestic 
incidents.
    An increased number of DHS components are now using HSIN 
extensively in the execution of their mission. The Federal Emergency 
Management Agency (FEMA) has integrated the tool in all emergency 
management coordination and has conducted extensive training across the 
nation. The United States Coast Guard has begun to use the tool as its 
primary coordination tool for exercises and missions that require 
large-scale, real-time collaboration. In addition, Customs and Border 
Protection (CBP) has constructed collaboration space for each of its 27 
border patrol sectors to enhance seamless information flow and 
situational awareness. Data currently shows that CBP is making daily 
use of this tool.
    HSIN is also an important tool for information sharing between 
state, local, tribal, and private sector communities. The network is 
also actively embraced by state and local fusion centers across the 
country, many of which have created their own customized portals. For 
example, in the State of Tennessee, the Director of the Office of 
Homeland Security has cited HSIN as the backbone of its new state 
fusion center and recommended that all states adopt the network for 
information sharing and situational awareness. As I believe you will 
hear from additional testimony today, The State of Florida is also an 
active user of the system.
    One of the most valuable tools on HSIN is the Common Operating 
Picture. HSIN and COP will be increasingly relied upon as the 
Department continues with a number of important initiatives, in 
particular, interagency planning and exercises. The COP is a real-time, 
web-based situational awareness tool that ties together key homeland 
security partners primarily at the federal, state, and Joint Federal 
Official (JFO) levels. It is designed to:
        <bullet> Provide a common view of critical information during a 
        crisis in order to enhance situational awareness;
        <bullet> Support sound, timely, risk mitigated and informed 
        decision making by providing a shared understanding of the 
        situation;
        <bullet> Provide the inter-agency with the capability to share 
        critical information;
        <bullet> Provide information integrity for reporting 
        requirements; and
        <bullet> Support a geospatial mapping feature known as iCAV--
        the infrastructure critical asset viewer--that can overlay 
        events such as hurricanes onto critical infrastructure assets.
    The COP was initially deployed during Hurricane Season 2006. As 
such, the focus of the early iterations of the COP was on natural 
disaster information. Currently, as part of our incremental approach, 
we are advancing the COP capabilities from natural disasters to all 
hazards and all threats. These steps will advance the COP capabilities 
from unclassified, hurricanes/natural disasters to classified, 
terrorist threats and incidents. The current focus is to develop a COP 
template for the ``worse case'' scenario for nuclear/radiological 
incidents and will use national exercises such as Ardent Sentry and 
real world events to validate and continue this development.
    While initially focused on integrating natural disaster 
information, DHS activated the COP for several non-natural disaster 
incidents, including the liquid explosive airline plot in the UK and 
the private airplane crash in New York City.
    Additionally, the National Infrastructure Coordination Center 
(NICC) utilizes the HSIN-Critical Sectors (HSIN-CS) portal to share 
information about the nation's infrastructure with private sector 
stakeholders. DHS has designated HSIN-CS to be its primary information-
sharing platform between the Critical Infrastructure/Key Resource 
sectors. HSIN-CS enables DHS and the critical sector stakeholders to 
communicate, coordinate, and share information. Through HSIN-CS, users 
are able to:
        <bullet> Receive, submit, and discuss timely, actionable, and 
        accurate information;
        <bullet> Communicate information pertaining to threats, 
        vulnerabilities, security, response and recovery activities 
        affecting sector and cross sector operations; and
        <bullet> Maintain a direct, trusted channel with DHS and other 
        vetted sector stakeholders
    The primary objectives of HSIN-CS are to generate effective risk 
management decisions, and to encourage collaboration and coordination 
on plans, strategies, protective measures, and response/recovery 
efforts between government, operators, and owners.

HSIN's Way Ahead
    Building on HSIN successes, lessons learned, and various 
recommendations from outside review, the Joint Program Management 
Office is pushing ahead to ensure that we get relevant information to 
more of our stakeholders more of the time. As we look to the future, we 
will continue the recent program enhancements and outreach efforts. 
Additionally, system enhancement will continue by examining and taking 
action on additional measures. The JPMO will:
        <bullet> Assess, and act upon, results from metrics designed to 
        measure a number of aspects of the overall program regarding 
        the effectiveness of information sharing across HSIN. Some 
        areas to be assessed include: the number of users, timeliness 
        of information posted, response times for requests for 
        information, numbers of outstanding and closed action items, 
        and comments posted through the system feedback mechanism.
        <bullet> Ensure DHS components become more involved in the 
        development of HSIN capabilities, articulate their mission 
        needs as well as the needs of the external partners they 
        sponsor, create a governance structure within their mission 
        areas with regard to HSIN use, and become active participants 
        in shaping the future of the program;
        <bullet> Evaluate advanced information technologies for 
        incorporation into HSIN such as tools for multi-party real-time 
        collaboration/co-authoring and fine-grained dissemination and 
        user access control to sensitive information products.
        <bullet> Work with the PM-ISE and the Information Sharing 
        Council to improve business processes and contribute to an 
        Information Sharing Environment that eliminates current 
        ``stove-pipes'' between programs;

T3Conclusion
HSIN plays an important role in the information sharing mission of DHS. 
Additionally, it is critical that all agencies and components are able 
to monitor HSIN/COP for up-to-date event/threat information when 
notified via NOC Notification.

HSIN is the information sharing tool that brings together all DHS 
components and external partners to maximize situational awareness.

Without HSIN, the ability of the Department to share information would 
be degraded.

Work needs to continue to ensure there is robust connectivity and 
interoperability with all DHS partners. This is an obtainable goal that 
will be achieved through methodical, thoughtful collaboration and 
planning.

HSIN, in conjunction with the COP, is becoming the Department's 
solution to address the ever-growing need to gather, assess, and share 
information critical to the Department's overall mission.

Finally, as we improve the HSIN technology and core functionality, we 
will focus on customer involvement and user satisfaction. Our goal is 
to improve overall collaboration and situational awareness among 
Federal, State, Local, and private industry partners.

    HSIN is playing a critical role in the Ardent Sentry and Pinnacle 
exercises that are currently underway. In these instances, HSIN and the 
COP are being utilized for situational awareness and information 
sharing.

Thank you for this opportunity to testify today and I look forward to 
answering your questions.

    Ms. Harman. I thank the witness. He is in a tough position 
on this panel. I do appreciate the fact that you see this as a 
collaboration. We do want to be your partners in fixing the 
problem. That is our goal.
    I now recognize our colleague, Mr. Langevin, for 5 minutes 
of questions.
    Mr. Langevin. Thank you, Madam Chair.
    I want to thank the panel for being here.
    Before I begin with my questions, I just want to thank you, 
Madam Chair, for holding this hearing and for focusing on this 
issue, which is of great importance.
    It is worth noting that the chair until just recently 
served for a number of years on the House Permanent Select 
Committee on Intelligence, and served for most of that time as 
ranking member of the Intelligence Committee. There is not a 
person in the Congress who understands the importance of good 
intelligence more than Congresswoman Harman.
    On that, you and I are in lock-step. Again, I thank you. It 
is no surprise that you would be holding this hearing so early 
as chair of this subcommittee. It is a great service to the 
country, and I appreciate it.
    I also, again, want to thank the panel.
    Ms. Harman. We won't take that out of your time.
    Mr. Langevin. Thank you very much, Madam Chair.
    [Laughter.]
    I want to thank the panel for being here.
    Mr. Powner, thank you for issuing and conducting this very 
important report. GAO is to be commended. You are focusing on 
issues that I have tried to raise now for a number of years. In 
particular, Don Kennedy and I have had the opportunity to speak 
on several occasions, going back over a number of years.
    Again, I thank you all for being here.
    I know that the focus of the hearing is moving past the 
missteps, but I think a certain amount of history is necessary 
here for context. In March of 2002, when I was first briefed by 
Mr. Kennedy and his team, about the RISS program, and actually 
went to RISS in Massachusetts and saw it first-hand for myself. 
I was certainly impressed with its information-sharing 
capabilities. I thought it could be the backbone for a national 
information-sharing network for the homeland security of the 
nation.
    In September of that year, I met with Tom Ridge, then 
secretary, or actually director of homeland security--later to 
be secretary--to recommend that RISS be used as a tool for the 
federal government to disseminate information for first 
responders and law enforcement. He seemed receptive and said he 
would look into it.
    Later in July of 2003 at a Homeland Security Intelligence 
Subcommittee hearing, I informed Bill Parrish, DHS's acting 
assistant secretary for information analysis, about my meeting 
with Secretary Ridge, and asked for an update of how DHS was 
working with RISS. In the 4 years since then, I have discussed 
RISS numerous times with DHS officials, so its existence and 
capabilities should not be a surprise at all to DHS.
    Given that history, I was extremely frustrated to read Mr. 
Powner's report, and learn not only that HSIN and RISSNET are 
not fully interoperable, but also that they are in many cases 
duplicative. It is certainly not a surprise to me. We have 
spent tens of millions of taxpayer dollars to create HSIN, yet 
it falls far short of what it should accomplish.
    Now, I know that Mr. Parent cannot speak to some of the 
mistakes that were made before his tenure, but I have to ask 
why DHS did not make it a priority from day one to ensure that 
HSIN would be fully compatible with RISSNET and other 
information sharing networks.
    My second question for Mr. Kennedy, RISS has been in 
existence since 1974, and reaches more than 7,500 law 
enforcement and criminal justice agencies. I would like to just 
have you take a few minutes to describe how and why RISS has 
been such a success.
    So with that, Mr. Parent?
    Mr. Parent. Yes, sir. What I can give you is the history of 
the relationship between RISS and HSIN, as I know it, and I am 
very certain it is correct. There was a relationship that 
resulted in a technological connection between RISS and HSIN 
that occurred sometime within the dates that you talked about 
and last June 2006. Last June 2006, which is about the time 
that my involvement with RISS and HSIN, and my involvement with 
HSIN goes back a little bit further, that connection was 
severed when HSIN went through an upgrade process in 2006. So 
that is the first point that the present group of people had to 
look at that issue.
    We are now re-fixing that technological connection between 
RISS and HSIN that Mr. Kennedy talked about, but I would also 
like to emphasize what he said which is that is only the first 
step. That is, in essence, a gateway that will allow documents 
to flow back and forth between the two systems. But I think we 
both have a bigger expectation of what this is going to go than 
just documents going back and forth.
    We have identified that the previous technological 
connection was very restrictive in terms of what documents went 
back and forth between the two systems. Our goal at this time 
is to open that conduit up substantially. But I think this is 
the beginning of a new relationship, or certainly a much better 
relationship. That is what I know about the history.
    Mr. Langevin. Thank you.
    Mr. Kennedy. Thank you, Congressman Langevin.
    To answer your question, I believe that the success of RISS 
lies in the fact that we are run by state and local and tribal 
law enforcement. We are funded through the federal government, 
but our executive policy boards are the colonels and the chiefs 
of police that we serve throughout the United States.
    I also believe that it is that regionality that we have, 
that actually we work with our users and we are user-driven. So 
if we have a system, we don't just give them a system; we sit 
our members down in a group and ask them for their input as to 
what they would like in a system, and then that is how we 
developed RISSNET.
    Whatever program that we do or whatever service we provide, 
whether it be camera equipment or to develop a database for 
them, it is for the users, and they are the ones that usually 
come to us, and we try to provide them with that service.
    But I think the most important thing is that we are not in 
competition with any agency, whether it be state, local or 
federal. I am sorry. We are not in competition with any agency 
or system. We are like Switzerland. We want to get along with 
everyone. We believe that if our members have a need for 
information, wherever it resides, that we at RISS have to find 
a way through interoperability with systems like HSIN and LEO 
to get that information to our members, because it is bi-
directional.
    Mr. Langevin. Thank you. My time has expired.
    I thank the chair for her indulgence, and thank you for 
your testimony.
    Ms. Harman. Thank you, Mr. Langevin.
    We will now move to Mr. Perlmutter. We are sort of 
recognizing people in the order of arrival, and then Mr. 
Carney.
    There will be a long recess for about six votes or so. It 
is coming up shortly. Hopefully, all three of you can ask your 
questions before we do that recess. And then what I think I 
might do, if it works out that way, is forego my own questions. 
I think you have all heard from me. And we will move to our 
next panel after the recess.
    Mr. Perlmutter, 5 minutes.
    Mr. Perlmutter. Thanks, Madam Chair.
    Just thinking about this over the last few days, there are 
different kinds of approaches here, if I understand it 
correctly. The HSIN system is a centralized system where there 
is somebody at the top. The RISS system is a decentralized 
system where you have a board of law enforcement for a 
particular region--the Rocky Mountain West or the Northeast.
    And so, to you, Mr. Kennedy, and to you, Mr. Parent, and 
then Mr. Powner if you want to jump in, how do we best get 
information? We talked about it. The ultimate goal here is the 
safety and security of the citizens of the United States of 
America within the bounds of the Constitution. The next level 
up is law enforcement. How do we best provide them information 
that makes me and my neighbors secure in Golden, Colorado?
    Mr. Parent? Am I wrong in describing one as a centralized 
kind of system and the other as a decentralized system?
    Mr. Parent. It is very hard to put HSIN into any normal 
category like that. What you said is correct, sir. It is 
central in that DHS is at the center of it, but HSIN is 
basically a series of communities. The communities include some 
law enforcement members, but they also include a large 
contingent of emergency management people, an international 
community, the private-sector people in the critical sector 
connections, and a few others that kind of represent this 
family.
    I agree with your goal completely, and I think all of us 
recognize the fact that we inherited or we have a series of 
what we can call ``communities,'' but they are enclaves out 
there, and the enclaves all need to be connected. They need to 
be connected in any way of communication that is presently 
being utilized to share information, whether that is chat, 
email, whether that is documents going back and forth.
    And that is our goal right now, is to, one, acknowledge 
that we at least have the communities. We have the people who 
have stepped up to the plate to participate in this grand 
information-sharing endeavor. It is our job to connect all of 
them.
    Mr. Perlmutter. Mr. Kennedy?
    Mr. Kennedy. Thank you.
    I wouldn't say that RISS is decentralized. We work 
individually in the regions with our network, but it is a 
national network. We have one IT. We call it the Office of 
Internet Technology that oversees all of the RISS programs as 
it relates to RISSNET. We also have all, like I said, state, 
local, federal and tribal systems that are online with us. We 
interconnect with many of the systems that I have actually 
briefed in my nine-page brief that is before you.
    But to answer your question, I think that what we need to 
do to continue this dialogue is we need to probably set up some 
type of an executive steering committee made up of the 
policymakers and the leadership of Homeland, DOJ, and RISS and 
others, and then maybe have someone that is the chairman of 
that particular steering committee--maybe the program manager 
from ISE or someone from Global--so that we can ensure that 
these meetings will continue so that the information that law 
enforcement and first responders need, you know, that comes 
from these systems that work independently of one another, can 
work together to try and make sure that that information 
doesn't slip through those cracks, and then incidents like that 
that happened in New Jersey don't fall by the wayside.
    Mr. Perlmutter. And I guess I can see some instances where 
we have to take information from the top and push it down, and 
then others where there is information from the bottom and push 
it up to the top--to do it as quickly as possible to minimize 
whatever the damage might be on some kind of bad guy out there 
who wants to do harm to Golden, Colorado.
    So for $300 million per year, what is it that I am actually 
getting out of HSIN?
    Mr. Parent. HSIN is not a $300-million-a-year program. In 
the entire life of HIS, we have spent $71 million, sir, and 
right now it is budgeted at about $20 million or $21 million 
per year. The $300 million is a number that I think includes a 
number of other DHS systems that are not part of HSIN or 
connected with this directly.
    Mr. Perlmutter. Thank you.
    Ms. Harman. The time of the gentleman has expired.
    We will now hear from Mr. Carney for 5 minutes for 
questions. Following that, this panel will be adjourned. I am 
intending to come back during votes, during the motion to 
recommit, to convene the second panel. Unfortunately, this is a 
crazy day, so that we can get their testimony on the record.
    If some of you can come back, that will be great.
    Mr. Carney?
    Mr. Carney. Thank you, Madam Chairman. Once again, thank 
you for your leadership.
    And my good colleague, Mr. Langevin, thank you so much. It 
is absolutely critical to get through this and get this fixed.
    Mr. Parent, DHS had an opportunity to comment on the GAO's 
report. The GAO obviously said that there is a lot of 
duplication going on. Do you agree with that?
    Mr. Parent. I agree with it, and Mr. Powner and I have 
talked, as well as our staffs have worked on this report 
together from the time the first draft came out in January. 
There is some truth in there. There are some functions that 
take place within the HSIN system that are very, very similar, 
dealing with the same kind of people and the same kind of 
information.
    But it is not and either/or-type situation. If you today 
said, ``Stop HSIN; pull the plug; save the $20 million; 
everybody use RISS,'' that couldn't work. RISS does not have a 
common operating picture. It doesn't have the information flow 
templates and process that we put into place for incident 
management. It also doesn't have all the same people. So there 
is a little bit of apples and oranges there, but it is true to 
say that at some point there are groups of the same type of 
people getting onto two different systems that are doing 
similar things.
    Mr. Carney. What percentage of HSIN do you think is unique, 
compared to what else is out there? Compared to RISS or LEO?
    Mr. Parent. I think the incident management piece is 
completely unique. I think the private-sector piece is 
completely unique. The law enforcement piece is the one where 
there are obviously other systems that are frequently compared 
as the GAO did, RISS and LEO being the two biggest systems. But 
some of the states have systems that they have put together 
that are obviously just state-centric that are also very 
similar.
    Mr. Carney. But on a percentage basis, could you give me a 
rough estimate?
    Mr. Parent. I think the law enforcement piece on HSIN, and 
let me use the number of authorized users. We have about 17,500 
authorized active users today on HSIN. About 4,000 are law 
enforcement members of HSIN-LE.
    Mr. Carney. Okay. Nothing further. We should go vote.
    Thank you.
    Ms. Harman. Thank you, Mr. Carney.
    That was the 10-minute bell, so I do think we need to move.
    I would just say to Mr. Powner--in fact, I will stay around 
for another minute or so, and I haven't asked questions--I 
would like to ask you to comment on the answers to prior 
questions, including the answer to the budget question.
    How much money, in GAO's opinion, has been spent on these 
different systems? And going forward, if we were able to 
rationalize this more efficiently, how much money would it cost 
and how much money would we save?
    Mr. Powner. Collectively, when you look at roughly 10 
homeland security information networks and applications at DHS, 
the annual amount spent is around $300 million. If you look at 
HSIN in particular, between 2004 and 2007, we have spent about 
$75 million.
    Now, in terms of going forward--and we had this discussion 
about in terms of what is duplicative and what is not 
duplicative--I wouldn't use the word that it is completely 
unique, because I think even in some of those areas that Mr. 
Parent referred to, there still is some duplication that occurs 
in some of those areas.
    The important thing moving forward is because we have some 
users now tied to HSIN--they like HSIN better than RISS, and 
some folks like RISS better than HSIN--the important thing 
moving forward is how do we integrate these applications and 
leverage them. But a couple of things to reinforce: One, we 
need to start with requirements. What are the users' needs?
    There are committees set up. It is very important that 
these committees actually identify the key users. No matter 
what the community is we are focused on, we need to make sure 
we get the right user needs and we proceed forward with that. 
We need to built out the content so that users are more 
inclined to use this. The key is linking these applications and 
perhaps others so that we leverage and we don't duplicate going 
forward.
    The program management of HSIN clearly needs improvement, 
according to OMB. I think Mr. Parent and I have discussed that. 
There are many efforts to do that. And then we talked a lot 
about the technical integration that needs to occur. Coupled 
with the technical integration, you probably want policies and 
strategies, because I think what you heard here is executive 
governance that would help, where we actually have some 
policies in place so that we know what the ground rules and 
game plans are. That can be done through MOAs and MOUs and 
those types of things.
    Ms. Harman. Thank you, Mr. Powner. I think you have the 
last word.
    This panel is dismissed. I should say for the record that 
your testimony will be included in the record in full. Without 
objection, so ordered.
    I would like to thank our colleagues and again commend Mr. 
Langevin--he wasn't here when I said this--for asking a 
question in 2002 that we are finally getting the answers to in 
2007. It took a while. I thank you for your patience.
    And I say to our panelists, we have a lot of work to do 
together. In real-time, we could be attacked at any moment. It 
is absolutely critical that information be shared efficiently, 
and that those who are protecting our hometowns get what they 
need and can communicate what they need, so that we can 
prevent, hopefully, or disrupt the plans of those who would 
harm us.
    I will be back shortly during this series of votes to 
convene the second panel. Hopefully, other members can return 
as well.
    Thank you very much.
    [Recess.]
    Ms. Harman. Hello, everybody. I would like to call up our 
second panel of witnesses. Thank you.
    Welcome to all of you, and apologies for this crazy 
schedule, but that is what we have today.
    I did talk to the ranking member, Mr. Reichert, and he will 
try to make it briefly. We are in between votes, which I think 
you all understand, so the goal here will be to convene this 
panel, to get your testimony in the most abbreviated form, to 
see whether we can proceed with questions. If that is possible, 
we will do it, but we are all trying to do all the things that 
are required this morning.
    So I welcome the second panel of witnesses.
    Our first witness is Captain William Harris, a 26-year 
veteran of the Delaware State Police. Captain Harris presently 
serves as the officer in charge of his agency's criminal 
intelligence section. His command includes the Delaware State 
Police electronics surveillance unit, the high-tech crime unit, 
intelligence investigations, and the Delaware Information and 
Analysis Center, the DIAC, the Delaware Fusion Center that has 
been operational since December of 2005.
    I am going to skip over some other aspects of your bio to 
get us going.
    Our second witness is First Sergeant Lee Miller, a 13-year 
veteran of the Virginia State Police, who manages the day-to-
day operations of the Virginia Fusion Center. First Sergeant 
Miller is intimately familiar with that center, having been 
involved in the working group that led to its creation and the 
policies and procedures that govern it.
    I want to thank you, sir, for the work that you did during 
the horrible massacre at Virginia Tech. We have heard from 
others that that work was widely shared and was very critical 
in giving needed information to other fusion centers around the 
country.
    The third witness is Inspector Barry Lindquist. Inspector 
Lindquist has a law enforcement career that exceeds 37 years. 
This career includes 28 years with the Pompano Beach Police 
Department, with 22 years as a supervisor, including 12 years 
as a command-level officer. Inspector Lindquist has worked with 
the Florida Department of Law Enforcement since his retirement 
from Pompano Beach in 1998 as a police captain.
    Our fourth witness is Major Brian K. Tomblin. Major 
Tomblin, Tennessee Army National Guard, is the military liaison 
to the Tennessee Office of Homeland Security. Major Tomblin 
coordinates military resources and response for the Tennessee 
National Guard in support of the Tennessee Office of Homeland 
Security and local authorities. As the program manager for 
HSIN-Tennessee, Major Tomblin manages the portals and 
coordinates training of Tennessee users.
    I think we will start our testimony right now with Captain 
Harris. If you can summarize in less than 5 minutes, your 
nation would be grateful.
    Let me just add that, in all cases, your written testimony 
will be included in the record in full.

    STATEMENT OF CAPT WILLIAM HARRIS, DELAWARE STATE POLICE

    Captain Harris. Okay. Good morning. First of all, thank you 
for having me. I am very humbled that you would ask us as a 
group, and particularly me, for our opinion on such important 
matters.
    My name is Captain Bill Harris. I am with the Delaware 
State Police. I am in charge of the criminal intelligence 
section and the Delaware Information Analysis Center, 
Delaware's state fusion center. I have been asked to give you 
state law enforcement's perspective on the information sharing 
culture as it pertains to our counterterrorism efforts.
    I will specifically speak about the duplication of efforts 
in federal agencies that not only hamper our efforts at 
effective information sharing, but also hamper our efforts to 
secure our state and our nation from future terrorist activity 
and attack.
    I would first like to preface my comments that I have had 
positive experience with professionals from both the Department 
of Homeland Security and many with the Department of Justice, 
particularly with the Bureau of Justice Assistance. As the 
commander of our state's fusion center, I am thoroughly 
familiar with the Department of Justice, the Department of 
Homeland Security's unclassified-but-sensitive information 
sharing systems.
    I would particularly like to speak about the duplication of 
efforts between the Homeland Security Information Network, 
RISS, the regional information-sharing system, and LEO, to 
include INFRAGARD.
    The RISS network was established in 1974 and has been a 
staple of federal, state and local law enforcement information 
sharing for over 30 years. In 2002, RISS launched new assets 
with the Automated Trusted Information Exchange. This new asset 
was to enhance the information-sharing environment with those 
non-law enforcement, homeland security stakeholders, within 
their own discipline, cross discipline, and their local, state 
and federal law enforcement partners.
    Each of the previously mentioned systems offer similar 
capabilities, such as an electronic bulletin board, document 
library, a chat tool, and encrypted email. As a law enforcement 
agency participating in the information-sharing environment, we 
are forced to choose between information-sharing systems with 
separate logons and passwords, and the monitoring of those 
systems. Because of this bureaucracy of multiple systems, our 
personnel have had to monitor all of these systems at once in 
an attempt to stay current on the sharing of counterterrorism 
information and homeland security information.
    This has also forced law enforcement agencies such as mine 
to look at the bes6t information-sharing resources available. 
This has been by far the regional information sharing system, 
or RISS. This system is both robust, user-friendly, contains 
more relevant, reliable and timely law enforcement and homeland 
security information that is actionable for the line-level law 
enforcement personnel, that will most likely identify the link 
to disrupting pre-operational planning of a domestic or 
international terrorist.
    Ms. Harman. Captain Harris, I hate to interrupt you. It has 
been 3 minutes, and it is not that we didn't tell you 5 
minutes, but I want to give everyone a chance. You have a made 
a point that I think is enormously important for our record.
    Is there one more sentence you would like to tell us?
    Captain Harris. Yes. The difference in the systems, ma'am, 
particularly with the private sector and other stakeholders. 
RISS or ATIX has no portals. They share cross-sector 
information across discipline information. Where HSIN, separate 
from the law enforcement side, has different portals. It 
doesn't allow for that information sharing that might be 
important to public health, and may also be important to 
agriculture.
    [The statement of Captain Harris follows:]

               Prepared Statement of Capt William Harris

     I am commander of the Delaware State Police's, Criminal 
Intelligence Section and the Delaware Information and Analysis Center 
(DIAC), Delawares state fusion center. I have been asked to give you 
state law enforcement's perspective on the information sharing culture, 
as it pertains to our counter-terrorism efforts.
    I will specifically speak about the duplication of efforts by 
federal agencies that not only hamper our efforts to effective 
information sharing, but also hamper our efforts to secure our state 
and nation from future terrorist activity and attack.
    I would like to preface my comments that I have had positive 
experiences with professionals from both the Department of Homeland 
Security, and many with the Department of Justice, particularly the 
Bureau of Justice Assistance.
    As the commander of our state's fusion center, I am thoroughly 
familiar with the Department of Justice and Department of Homeland 
Security's unclassified, but sensitive information sharing systems. I 
would particularly like to speak about the duplication of efforts 
between the Homeland Security Information Network (HSIN), the Regional 
Information Sharing System (RISS), and Law Enforcement on Line (LEO), 
to include INFRAGARD.
    The RISS network was established in 1974 and has been a staple of 
federal, state, and local law enforcement information sharing for over 
30 years. In 2002, RISS launched new assets with the Automated Trusted 
Information Exchange. This new asset was to enhance the information 
sharing environment with those non-law enforcement, homeland security 
stakeholders, within their own discipline, cross discipline, and their 
local, state, and federal law enforcement partners.
    Each of the previously mentioned systems offer similar capabilities 
such as an electronic bulletin board, document library, a chat tool, 
and encrypted Email. As a law enforcement agency participating in the 
information sharing environment, we forced to choose between 
information sharing systems with separate logons and passwords, and the 
monitoring of those systems. Because of this bureaucracy of multiple 
systems, our personnel have had to monitor all of these systems in an 
attempt to stay current on the sharing of counter-terrorism and 
homeland security information.
    This has also forced law enforcement agencies, such as mine to look 
at the best information sharing resource available. This has been by 
far the Regional Information Sharing System (RISS). This system is both 
robust, user friendly, and contains more relevant, reliable, and timely 
law enforcement and homeland security information that is actionable 
for the line level law enforcement personnel, that will most likely be 
the identified link to disrupting pre-operational planning of a 
domestic or international terrorist.
    The RISS network gives access to an electronic bulletin board (RISS 
Leads) used by multiple law enforcement agencies, to include a national 
criminal intelligence database (RISS Intel) to include gangs (RISS 
Gang). In addition to this RISS has connectivity to assets such as the 
High Intensity Drug Trafficking (HIDA) Centers (19 databases), the 
National White Collar Crime Center, the U.S. Secret Service's Targeted 
Violence Information Sharing System (TAVIS database), the Law 
Enforcement Intelligence Unit (LEIU database), the El Passo 
Intelligence Center, (EPIC database), the National Drug Pointer Index 
(NDPIX database), to name just a few. These features are the force 
multiplier that law enforcement agencies and fusion centers are 
searching for to assist in identifying anomalies and those common 
crimes and networks that are part of pre-operational planning by both 
domestic and international terrorist.
    Duplication of systems within the information sharing environment 
with the public and private sectors are just as confusing and 
bureaucratic. HSIN has several portals for this purpose, the FBI is 
promoting INFRAGARD as a communication tool, and RISS has the Automated 
Trusted Information Exchange (ATIX). The concept of including the 
public and private sector are part of the Information Sharing 
Environment Implementation Plan, and makes good business sense to 
include these disciplines. However, when working with our critical 
infrastructure stakeholders in the private sector, they are presented 
with three systems that are supposed to accomplish the same goal.
    Once again, state and local law enforcement, which have 
responsibility for protecting our critical infrastructure, are forced 
to choose the best information sharing resource available. This has 
been by far the RISS ATIX system, for many of the same reasons law 
enforcement likes the features of the RISS law enforcement network. The 
information, contacts, and features available on the ATIX system make 
it more robust and user friendly. Additionally, like HSIN, users have 
the ability to go into their identified ``communities'' or disciplines, 
however unlike HSIN and INFRAGARD; users have the ability to gather 
information and contacts from users outside of their discipline, giving 
them relevant, reliable, and timely information sharing relationships 
of mutual value. This was most evident recently in February 2006, when 
DHS released the ``lessons learned'' from ``Cyber Storm,'' a cyber 
security preparedness exercise. One of the key lessons learned, was to 
no one's surprise, that interagency coordination and cross-sector 
information sharing enhanced overall coordination, communication, and 
response.
    RISS ATIX gives our law enforcement personnel and key stakeholders 
within our state and region this type of effective information sharing 
capability that no other system does.

    Ms. Harman. Let me thank you for that.
    We are moving right now to Sergeant Miller.
    We are going to continue to call on all of you, because we 
want this whole reform effort to start with you, not end with 
you. You should have been incorporated in the first place. If 
the RISSNET turns out to be much more user-friendly and 
helpful, I don't want to imagine what our final conclusion will 
be, but you should bet on the fact that we want to be useful 
and helpful to you.
    Sergeant Miller?

     STATEMENT OF 1stSgt LEE MILLER, VIRGINIA STATE POLICE

    Sergeant Miller. Good morning, Madam Chairman.
    The primary mission of the Virginia Fusion Center is to 
fuse together key resources from local, state and federal 
agencies, as well as private industry, to facilitate 
information collection, analysis and sharing in order to 
prevent and deter a terrorist attack and all other forms of 
criminal activity.
    After the September 11, 2001, terrorist attacks, law 
enforcement agencies were forced to meet the information 
demands created by the increased focus on terrorism. As a 
result, the resources needed to provide proactive intelligence 
operations have increased exponentially, thus compelling law 
enforcement agencies to consider the concept of a fusion 
center.
    In order to meet our mission, the Virginia Fusion Center 
utilizes a vast array of networks and databases to assist in 
the fusion process. These separate systems provide information 
and intelligence relevant to situational awareness, as well as 
providing the ability to identify trends, patterns, and targets 
that enhances the ability of law enforcement to be proactive 
instead of reactive.
    Some of the networks that the Virginia Fusion Center 
monitors during our day-to-day operations are HSIN, of course, 
LEO, FPS Portal, HSDN, RISSNET, JRIES, and systems developed by 
the Commonwealth of Virginia. As stated in previous reports, 
the number of systems that are available causes duplication and 
does not promote an effective business process.
    These systems also provide the Virginia Fusion Center an 
avenue for disseminating information and intelligence to our 
different partners. In order to reach all of our partners, our 
information must be submitted to multiple networks and systems, 
thus creating another area of duplication and operational 
ineffectiveness.
    On March 24, 2006, the Department of Homeland Security's 
Office of Intelligence and Analysis initiated the homeland 
security information network, HSIN-Intel. This was a 3-month 
pilot effort of multi-directional sharing assessments between 
state and local intelligence professionals and the Department 
of Homeland Security's Office of Intelligence and Analysis, of 
timely, accurate, actionable information at the unclassified, 
for-official-use-only level.
    This pilot gave local and state officials the opportunity 
to provide input into the business process, as well as the 
functionality of the system, and a steering group comprised of 
local and state officials wrote and approved the charter. This 
pilot was extended for a second 3 months, and then the steering 
group recommended turning this into an operational community of 
interest.
    This collaborative effort between state and local created a 
true community of interest that encompassed a usable network of 
intelligence professionals, analyst-to-analyst collaboration, 
and a continuing partnership between local, state and federal 
intelligence communities. This community has created trust 
relationships that ultimately is a more powerful tool than any 
network or portal, and these relationships will remove the 
resistance to sharing information that has plagued government 
response in the past, thereby pooling together information form 
all pertinent intelligence sources to effect a decisive 
response.
    This community of interest now has 14 member states, and it 
is expected to double by the end of this fiscal year, and is a 
perfect example of local, state and federal agencies working 
together in an effort to meet the needs of all those involved.
    Recommendations. In order to be a true intelligence-led 
policing model, local, state and federal analysts must be able 
to see all information and intelligence. If analysts are 
provided only a couple of pieces of the puzzle, we will never 
be able to see the overall picture. Local, state, tribal and 
federal agencies, as well as private industry, have individual 
pieces, and we must have an IT mechanism, as well as trusted 
relationships, to put these pieces together.
    Currently, state and local analysts are provided access to 
a wide range of unclassified systems, to include some of the 
ones that I spoke of before, but we have limited access to 
classified systems such as the homeland secure data network. 
Local, state and federal unclassified initiatives must be 
incorporated to meet the needs of everyone involved in homeland 
security and to improve operational effectiveness. Local and 
state intelligence professionals must also be given the same 
opportunity as their federal counterparts regarding the access 
to classified systems.
    [The statement of Sergeant Miller follows:]

                Prepared Statement of 1stSgt Lee Miller

    Good morning Mr. Chairman and distinguished members of the 
Subcommittee.
    My name is Lee Miller and I am a 15-year member of the Virginia 
State Police. I currently coordinate the day-to-day operations of the 
Virginia Fusion Center. Thank you for the opportunity to testify today 
regarding the Homeland Security Information Network. There have been 
several reports written regarding the numerous federal networks that 
are available to promote information sharing among local, state, and 
federal agencies and private industry. These reports discussed 
practices that were not utilized in the implementation of the Homeland 
Security Information Network and recommendations to improve 
coordination between the Department of Homeland Security and local and 
state initiatives. In my testimony, I will discuss some of these 
issues, but I will concentrate on collaborative efforts that will 
enhance information sharing as well as Department of Homeland Security 
initiatives that have produced positive results in order to move 
towards a better information sharing platform.
    The Primary Mission of the Virginia Fusion Center is to fuse 
together key resources from local, state, and federal agencies and 
private industries to facilitate information collection, analysis, and 
sharing in order to prevent and deter terrorist attacks and all other 
forms of criminal activity. The secondary mission of the Virginia 
Fusion Center is to support the Virginia Emergency Operations Center by 
centralizing information and resources to provide a coordinated and 
effective response in the event of an attack or natural disaster. After 
September 11, 2001 terrorist attacks, law enforcement agencies were 
forced to meet the informational demands created by the increased focus 
on terrorism. As a result, the resources needed to provide proactive 
intelligence operations have increased exponentially, thus compelling 
law enforcement agencies to consider the concept of a Fusion Center.
    In order to meet our mission, the Virginia Fusion Center utilizes a 
vast array of networks and databases to assist in the fusion process. 
These separate systems provide information and intelligence relevant to 
situational awareness as well as providing the ability to identify 
trends, patterns and targets that enhances the ability of law 
enforcement to be pro-active instead of re-active. Some of the networks 
that the Virginia Fusion Center monitors during our day-to-day 
operations are the Homeland Security Information Network (HSIN), 
Department of Justice's Law Enforcement Online (LEO), Federal 
Protective Services Law Enforcement portal, Homeland Secure Data 
Network (HSDN), Regional Information Sharing System Network (RISSNET), 
Joint Regional Information Exchange System (JRIES) as well as systems 
developed by the Commonwealth of Virginia. As stated in previous 
reports, the number of systems that are available causes duplication 
and does not promote an effective business process. These systems also 
provide the Virginia Fusion Center an avenue for disseminating 
information and intelligence to our different partners. In order to 
reach all of our partners, our information must be submitted to 
multiple networks and systems thus creating another area of duplication 
and operational ineffectiveness.

Moving Forward
    On March 24, 2006, the Department of Homeland Security's Office of 
Intelligence and Analysis (I&A) initiated the Homeland Security 
Information Network State and Local Intelligence (HSIN-Intel) Community 
of Interest (COI). This was a three month pilot effort for the multi-
directional sharing assessments between state and local intelligence 
professionals and Department of Homeland Security's Office of 
Intelligence and Analysis (DHS/I&A) of timely, accurate, actionable 
information at the unclassified, For Official Use Only level. This 
pilot gave local and state officials the opportunity to provide input 
into the business process and functionality of the system, and a 
Steering Group comprised of local and state officials wrote and 
approved the charter. This pilot was extended for a second three 
months, and then the Steering Group recommended turning this into an 
operational Community of Interest. This collaborative effort created a 
true Community of Interest that encompassed a useable network of 
intelligence professionals, analyst to analyst collaboration and a 
continuing partnership between local, state and federal intelligence 
communities. This community has created trusted relationships that 
ultimately is a more powerful tool than any network or portal and these 
relationships will remove the resistance to sharing information that 
has plagued government response in the past, thereby pooling together 
information from all pertinent intelligence sources to effect a 
decisive response. This Community of Interest now has fourteen member 
states, and it is expected to double by the end of this fiscal year, 
and is a perfect example of local, state and federal agencies working 
together in an effort to meet the needs of all those involved.

Recommendations
    In order to be a true Intelligence led policing model, local, state 
and federal analysts must be able to see all information and 
intelligence. If analysts are provided only a couple pieces of the 
puzzle, we will never be able to see the overall picture. Local, state, 
tribal and federal agencies as well as private industry have individual 
pieces, and we must have an IT mechanism as well as trusted 
relationships to put these pieces together. Currently, state and local 
analysts are provided access to a wide range of unclassified systems, 
to include the Homeland Security Information Network, but have limited 
access to classified systems such as the Homeland Secure Data Network 
(HSDN). Local, state and federal unclassified initiatives must be 
incorporated to meet the needs of everyone involved in homeland 
security and to improve operational effectiveness. Local and state 
intelligence professionals must also be given the same opportunity as 
their federal counterparts regarding the access to classified systems. 
In the past, analysts from the federal intelligence community primarily 
focused on information contained in classified systems, while local and 
state analysts focused on information contained in unclassified 
systems. Using this system, how will we ever be able to see the overall 
picture?

Conclusion
    Virginia and other state and local agencies understand the 
importance of protecting classified information to include sources and 
methods that are contained in these reports. The problem that still 
exists is the over classification of information and intelligence and 
the lack of tear lines that could be provided to local and state law 
enforcement in addition to other agencies and private Industry with a 
homeland security role. These tear lines could provide valuable 
tactical and strategic information that could assist in the overall 
mission of these entities. The ability of local and state law 
enforcement agencies to mitigate potential threats in their communities 
is hampered because of the lack of actionable information and 
intelligence. In all likelihood, a police officer in one of our 
communities will encounter a potential terrorist during their normal 
tour of duty, and without the information needed to perform their 
duties; they will not be able to identify the possible threat. The 
Federal Intelligence community needs to understand the importance of 
either providing local and state law enforcement agencies with a valid 
``right and need'' access to some of these networks or the ability to 
provide tear lines through a standard business process and network. The 
Homeland Security Information Network would be a perfect network to 
disseminate these tear lines in ``real time'' so that local and state 
law enforcement agencies could have the ability to receive tactical and 
strategic information and intelligence to assist them in their homeland 
security role.

    Ms. Harman. Sergeant, I am going to cut you off there. 
Point well-taken, and you should know that this subcommittee is 
working on both reforming our classification and our pseudo-
classification systems, and making certain that you get the 
information you need.
    I just want to get through this testimony, and we will see 
where we are with votes, and give you more time.
    Inspector Lindquist?

STATEMENT OF BARRY S. LINDQUIST, INSPECTOR, OFFICE OF STATEWIDE 
      INTELLIGENCE, FLORIDA DEPARTMENT OF LAW ENFORCEMENT

    Mr. Lindquist. Good morning, and thank you for the 
opportunity to speak.
    One poster doesn't fit all.
    I am departing--for the sake of brevity.
    Florida has been deeply committed to HSIN as HSIN-Florida. 
We have developed with the cooperation and support of DHS. Yes, 
there has been a bumpy road, but we have a mechanism of sharing 
for multiple disciplines from our domestic security task force. 
It includes law enforcement and critical infrastructure, fire, 
public information and health.
    Recently, our state Department of Health has made a 
decision to vacate a site that they had been using to share 
response plans for health, and put it on HSIN-Florida. A HSIN-
Florida is working. It would be very detrimental for us for any 
reduction in services or change in the program. If we all the 
help desk, the help desk is there.
    We have asked for improvements. We have received those. The 
common operating picture, that has been great. I want to mirror 
what Lee has said about intelligence and analysis, and HSIN-
Intel. It has started. It is a collaboration, and it is working 
extremely well. I think it is the direction that the committee 
like to see.
    We have been guarding that deployment to those intelligence 
professionals around the state that are important.
    [The statement of Mr. Lindquist follows:]

                Prepared Statement of Barry S. Lindquest

    Good morning Madam Chair and distinguished members of the 
Subcommittee.
    My name is Barry Lindquist and I am a member of the Florida 
Department of Law Enforcement (FDLE). I am an Inspector assigned to 
Domestic Security matters in the FDLE Office of Statewide Intelligence 
and the Florida Fusion Center. In this position, I have been the 
primary point of contact for the Department of Homeland Security for 
matters relating to HSIN.

Introduction
    Florida was one of the first states to pilot the Homeland Security 
Information Network (HSIN) and since implementation in early 2005, 
HSIN-Florida has become a cornerstone in our information sharing 
strategy. Additionally, the HSIN State and Local Intelligence Community 
of Interest (HSIN-Intel COI) is currently becoming our primary method 
of sharing information with the Department of Homeland Security, office 
of Intelligence and Analysis.
    Homeland Security in Florida is called Domestic Security and is 
structured around our multi-disciplinary Domestic Security Task Force 
(DSTF). The DSTF structure is further subdivided into seven Regional 
DSTF components (RDSTF) with an FDLE Special Agent in Charge and a 
regional Sheriff or Police Chief as Co-Chairs of their RDSTF.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Florida RDSTF Regions
    Each RDSTF had components that include the following workgroups;
        <bullet> Law Enforcement,
        <bullet> Fire,
        <bullet> Emergency Management,
        <bullet> Health and Medical,
        <bullet> Schools and Education,
        <bullet> Communications Critical Infrastructure, and
        <bullet> Public Information.

HSIN-Florida
    When the Department of Homeland Security first approached Florida 
in early 2005 with the opportunity to pilot HSIN, we already had a 
statewide anti-terrorism intelligence database named InSite and an 
Internet website named ThreatCom that was used to share information and 
alert our task force members about events and potential threats. Both 
of these systems were created in 2002 and were well integrated into our 
Domestic Security information sharing strategy. The challenge that HSIN 
presented was determining how it could be effectively integrated with 
our existing systems without confusing our partners.
    Florida worked with the Department of Homeland Security to simplify 
and tailor the system to meet our needs, HSIN-Florida has four main 
components;

        <bullet> Home Page
                <bullet> Announcements
                <bullet> Recently uploaded products
                <bullet> Calendar
        <bullet> Situational Awareness--a discussion thread
        <bullet> DHS Documents--Recently uploaded documents contained 
        in the government.hsin.gov site
        <bullet> Document Library--that has a statewide document 
        library and libraries for each of our seven regions.
    Using this basic structure, HSIN-Florida allows every user to view 
and upload the documents. Every user has the ability to decide what 
they believe is important and share their information with other users. 
In support of our RDSTF structure, Regional HSIN-Florida Administrators 
have the ability to edit and delete content, and also nominate and 
validate new users into the system.
    Every HSIN-Florida user is asked to complete an application for 
access to the system. Our Regional Administrators ensure a background 
is conducted before user access is granted. The Regional Administrators 
are also responsible for ensuring that users are removed from the 
system when their position changes and no longer justifies access.
    Since HSIN-Florida was deployed, significant enhancements have been 
made in the Common Operating Picture (COP) that is deployed in many of 
the national HSIN sites. Florida did not include COP in HSIN-Florida 
because of our strong partnership with the Department of Emergency 
Management which has its own system for managing events in Florida. In 
its new and improved form, Florida has a pending request to include COP 
in HSIN-Florida to better inform our task force members about national 
incidents managed by DHS.

HSIN_State and Local Intelligence
    Florida also participated in the HSIN-State and Local Intelligence 
(HSIN-Intel) pilot initiated by the DHS Office of Intelligence and 
Analysis (I&A). Our goal in this pilot was to establish a known and 
trusted community of intelligence professionals that could collaborate 
together and work with I&A on common Homeland Security matters.
    The goal of HSIN-Intel is to provide DHS and selected State and 
local participants with a trusted and centralized information sharing 
mechanism for the exchange of controlled, unclassified intelligence and 
threat related information. In Florida, HSIN-Intel is being deployed in 
the Florida Fusion Center and with our other fusion centers around the 
state.

Other HSIN National Communities of Interest
    Florida has not widely deployed other HSIN national communities of 
interest. The Florida information sharing strategy focuses on 
collecting and analyzing information received from our DSTF regions and 
ensuring the accuracy and validity of this information as it flows from 
Florida to our national partners.
    National communities of interest such as Emergency Management have 
been deployed to the Florida Department of Emergency Management. The 
Law Enforcement community of interest has been made available to some 
of our state and local Fusion centers and Intelligence partners.

    Ms. Harman. Thank you for that testimony.
    Captain Tomblin?

 STATEMENT OF CAPT BRIAN TOMBLIN, MILITARY LIAISON, OFFICE OF 
        HOMELAND SECURITY, TENNESSEE ARMY NATIONAL GUARD

    Captain Tomblin. Thank you, ma'am.
    I am going to follow along with Barry and depart from 
written comments, and just state that, like Florida, Tennessee 
has adopted HSIN, and has followed the DHS lead and invested 
its information sharing solely on HSIN.
    The HSIN-Tennessee system is very robust. We have five 
separate portals, an emergency management portal, a critical 
infrastructure portal, and then the law enforcement portal. 
There is a portal for training exercises and for running 
operations that you all want out there on the live portal.
    So what I would say to you is that HSIN-Tennessee is a 
stand-alone system that works for us. It is an information-
sharing tool. We took it from DHS as they presented it. We 
modified it to meet our needs. I am confident in the current 
leadership, especially Theresa Phillips. She is very 
aggressive, very open. We have looked to her to reestablish the 
state working groups, and that is one of the big 
recommendations.
    Everything that we have issue-wise revolves around 
communications. Reestablishing those state working groups, 
listening to the states and what their needs are, will just 
further this system. We are very happy with it at the state 
level. My commissioner has only one fear, and that fear is that 
it would go away, and he has invested everything in it.
    So I would leave you with that, and I thank you for this 
opportunity.
    [The statement of Captain Tomblin follows:]

               Prepared Statement of Maj Brian K. Tomblin

I. Introduction
    Chairwoman Harman, Ranking Member Reichert, and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
and discuss the performance of the Homeland Security Information 
Network in the state of Tennessee.
    The State's ability to share information quickly and accurately 
over a secure network, among various communities of interests, is 
crucial in order to prevent, protect, deter and respond to potential 
criminal and terrorist acts. The state of Tennessee has followed the 
Department of Homeland Security's lead and invested its information 
sharing holdings and strategies on the Homeland Security Information 
Network (HSIN) platform. The Homeland Security Information Network--
Tennessee (HSIN-TN) provides connectivity for public service 
disciplines to receive and share information throughout Tennessee. 
Through a successful partnership with the Department of Homeland 
Security, HSIN--TN is the secure information sharing network for the 
state and provides users the ability to interface with the state all 
crimes intelligence and information fusion center.
II. HSIN--TN Portal Development
    In February 2005, TN was selected to participate in the pilot phase 
of HSIN development at the state level. Recognizing the state did not 
have the ability to gather, review and disseminate information via a 
common system, the TN Office of Homeland Security (OHS) developed 
information sharing goals for the state and an aggressive timeline for 
the deployment of the HSIN--TN across Tennessee. Working directly with 
the IT contractor, Mantech-IST, the initial TN portals where developed. 
A HSIN-TN pre-pilot was conducted in August 2005 and a pilot phase was 
conducted in September to allow TN OHS users to become familiar with 
the system. Consequently, HSIN became a viable tool for communication 
with Louisiana during Hurricane Katrina. Communicating via the HSIN 
portals, Tennessee was able to provide the Louisiana State Police with 
logistical support and the Tennessee Office of Homeland Security was 
able to route an assistance call received from a relative in Knoxville 
to the Louisiana State Police which resulted in the successful rescue 
of a family trapped in a flooded attic.
    The initial HSIN--TN training of law enforcement occurred in 
November, 2005. A fusion center initiative conference was held in 
December 2005. During this conference, HSIN--TN was briefed to the 
state and local law enforcement leadership as the information sharing 
platform for the TN fusion center.

    III. HSIN--TN Training
    In January 2006, I was named the HSIN-TN program manager and tasked 
with developing a HSIN training program for the state. Based on 
Tennessee geography and the established 11 TN Homeland Security 
Districts; a regional, east to west fielding plan was derived. Training 
requirements were submitted to the primary HSIN training contractor, 
MTCI, and training began in east TN at Johnson City in March 2006 and 
concluded in Memphis in August 2006. This initial fielding plan 
resulted in the training of over 783 individual users, representing 
over 330 agencies.
    The initial training strategy was to train local, state and federal 
law enforcement officers in order to develop a user base that would 
share critical information with each other and provide the fusion 
center with all source criminal data. While reviewing the initial east 
TN training, a training gap was identified. We determined the state was 
missing an opportunity to get various public service disciplines 
together for training which would further promote interaction and 
information sharing between law enforcement and non-law enforcement 
partners. Training throughout the remaining homeland security districts 
was then offered to additional communities of interest (COI) such as 
emergency management, fire and rescue and selected critical 
infrastructure partners.

    IV. HSIN--TN Portals
    In June 2006, DHS recognized the HSIN--TN portals as operational 
and the portals where considered live and no longer a training 
environment. TN currently manages five HSIN state portals; Home, Law 
Enforcement, Critical Infrastructure, Training and OHS. All portals are 
now monitored by the TN Fusion Center, a joint partnership between the 
TN OHS and the Tennessee Bureau of Investigations (TBI). The portals 
allow all communities of interest users to share information at the 
Sensitive But Unclassified (SBU) level based on their occupational 
discipline and provides secure instant messaging via the JABBER 
collaboration tool. HSIN--TN users can contribute products to the 
appropriate portal, request information or operational support from the 
fusion center, research or contribute to the document library and 
access additional DHS portals via hotlinks. Since becoming operational, 
we have increased our user base to more than 1000 trained users 
representing over 500 agencies. HSIN training continues on a weekly 
basis as the state strives to make HSIN ? TN the focal point for 
information sharing in Tennessee.

    V. Current Challenges
    While HSIN--TN provides the state with an excellent ability and 
resource, frustration is still experienced on managing and maintaining 
the system at the state level. As the HSIN--TN program manager, I have 
administration and community of interests rights but these are limited 
to only the ability to nominate and validate new users and to remove 
information from the portals. I cannot effectively manage the user data 
base. There is no capability to monitor use of the portal, review the 
user data base or to delete users when they no longer require access to 
the portals. Once the user is validated into the system, I loose the 
ability monitor and maintain the state user accounts. However, I have 
been briefed that a new account management tool is reportedly near 
fielding.
    The line of communication between the state and a viable DHS HSIN 
representative is convoluted. Tennessee has a Stakeholder Relationship 
Manager assigned through Sim-G Technologies but when request for 
support or changes to the portals are requested they often go 
unresolved or unanswered. When HSIN was first deployed at the State 
level it included a GIS mapping product. Shortly after our state 
portals where considered functional and after a third of the state had 
been trained, a decision was made to upgrade the HSIN system. The 
concept was to standardized portal configuration in order to facilitate 
faster deployment to new state partners. While this was understandable, 
the changes to the portal where made without input from the pilot 
states and included changes that were not discussed with the pilot 
states. One of those critical changes was the decision to drop the GIS 
mapping product. A reliable mapping tool is crucial to the success of 
the portal and provides the smaller departments and agencies a 
capability they normally could not afford. I have been briefed that a 
replacement mapping tool will be available on the state portals in the 
future.
    When the pilot states were identified, an HSIN state working group 
was developed to allow pilot states to meet together quarterly and 
discuss operational and technical issues with each other and the DHS 
HSIN staff and contract support. These meetings were very beneficial 
and allowed the states to adopt best practices and identify common 
issues and problems with the system. After only two meetings, the 
working group was dissolved without explanation and changes to the 
portals where implemented without input from the states. Information 
technology (IT) support is now handled through the Change Request 
Registration and Tracking System (CHaRTS). This automated system for 
requesting changes to the portals works but it is hard to explain 
complex technical issues through written communication. As the portals 
are operational, the State cannot afford to submit changes through and 
automated system, problems need to be rapidly worked in real time. In 
the past, by talking directly to the IT contract support, simple 
changes could be made over the phone and reviewed by the state in a 
matter of minutes, not days or weeks.

    VI. Recommendations
    The problems and frustrations currently experienced with HSIN are 
all directly related to a lack of communication and clear guidance 
between DHS and state partners. Re-establishing the state and local 
working groups will greatly enhance the states ability to communicate 
common issues and develop working solutions for implementation. Working 
together as a team to develop policy and procedures, lessons learned 
and best practices, and to review, test and implement new technical 
advances and solutions is critical to the continued success between DHS 
and its state partners.

    VII. Conclusion
    The Homeland Security Information Network is a critical component 
of the information sharing system of Tennessee. Tennessee has taken 
this information sharing tool and forged it into the secure information 
sharing network for the state. Continued cooperation and interaction 
between DHS and its state partners are crucial to the continued success 
of this system. Re-establishing the state working groups, implementing 
account management tools and streamlining the IT support will help to 
ensure the stability and viability of HSIN for years to come.

    Ms. Harman. Thank you, Captain. I appreciate your 
testimony.
    You can see the votes have been called again, but I am try 
to get in a couple of questions.
    Obviously, two of you think this is more suitable for your 
needs, and two of you think that you have been able to use the 
HSIN network, at least in your states, in a way that is 
satisfactory. I am not sitting up here to referee this. Let me 
ask a question and just if any of you disagrees with this 
statement, please say so.
    Do you all agree that your needs are what these systems 
need to satisfy? Yes or no? That the set of criteria that need 
to be met have to originate from you, because you are the folks 
who have to take the information and make it operational in 
your areas. Do you agree with that?
    Okay. I think it was Inspector Lindquist who said one size 
does not fit all. Does everyone agree with that proposition? Or 
do you think one size should fit all?
    Nobody disagrees with that?
    Everyone was here when the GAO issued its report in our 
prior panel. Does anyone want to comment in a sentence on the 
findings of the GAO report, which was fairly harsh, at least in 
terms of duplication? Does anyone disagree with the thrust of 
those findings?
    Nobody disagrees? Mr. Lindquist?
    Mr. Lindquist. No, I don't.
    Ms. Harman. No. Okay. So the goal here, I hope, is to start 
at your end, figure out if there is commonality of need, and I 
don't mean one size fits all, but how best to figure this out. 
And then try to move forward, eliminating duplication, waste, 
inefficiencies, with products that suit your needs.
    Does anyone disagree with that? No.
    We had conversation in the last panel about mechanisms to 
do that. You all heard those conversations. Does anyone have a 
specific suggestion about how the consultation should work?
    Captain Harris. Madam Chairman, I have just a suggestion on 
that, not how the mechanism should work, but it is very 
important to have a single sign-on for those systems because 
those systems are all important, but a single sign-on feature 
is very relevant.
    Ms. Harman. Thank you.
    Does anyone disagree with that? No.
    Okay, the technologically challenged--that would be me--I 
would say ``hurray,'' because obviously the goal is to get 
everything you need quickly. Correct? And make sure that you 
are not missing anything. Right?
    Sergeant Miller. A perfect world for us is a one-stop-one-
shop place.
    Ms. Harman. Right. That would meet your problem, would it 
not, Inspector Lindquist, because if you could log-on through 
the system you are comfortable with and get the rest of the 
information, you would be happy about that. Right?
    Mr. Lindquist. I think a single log-on is a good idea, but 
it is not the only solution. I think part of what we need to do 
is define how the information is going to flow within a state, 
because the states want to be able to vet and verify the 
information as it flows from the state to the national 
community, and to its partners, so that we don't end up 
erroneously tracing down old information that occurred last 
week.
    Ms. Harman. Hear, hear. I agree with that as well. Nobody 
disagrees with that, right? But accurate, actionable and timely 
information is what you need. Everyone agrees, and everyone 
agrees we have some work to do to get that for all 
jurisdictions in a form that is useful. Correct?
    All right. I am going to leave this panel there. I am very 
sorry about this, but you can hear all the bells and whistles.
    Unfortunately, other members could not get back, but if you 
can stay for a few more minutes, staff is here and if there are 
additional questions we have, they will be asked informally, 
because we don't have a mechanism in this committee to do staff 
questioning of witnesses. I would hope that could occur.
    You are all enlisted in this war against those who would 
harm us in America. Let me just add this one sentence. I have 
been saying for some time, and it was before the most recent 
Fort Dix issue, that they are here. There are people in our 
country who are trained, somewhat loosely coordinated, and 
intending to attack us. We need our best people on the case. In 
most cases, they are you, and the people who work with you.
    These attacks could occur anywhere at any time, and if you 
don't have the training and information you need to know what 
to look for and what to do, we will not prevent and disrupt 
them. So our goal on this subcommittee is to get you that 
training and information ASAP.
    Obviously, we need you as part of the group that fixes 
systems that are not working properly, because these products 
have to suit your needs. That is the absolute priority, and I 
give you my promise that on a bipartisan basis here, everyone 
is intent on getting this right, and with your help, we will.
    Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 11:55 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
